                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General


                              Semiannual Report to the Congress
Office of Inspector General


                              October 1, 2002 to March 31, 2003
                         Pictured on the front cover: Embassy Ljubljana, Slovenia

                    Picture provided by the Bureau of Overseas Buildings Operations


                                Requests for additional copies of this publication
                                should be addressed to:

                                         Office of Inspector General
                                         U.S. Department of State
                                         OIG/CPO, Room 810
                                         1700 North Moore Street
                                         Arlington, VA 22209



                                     Department of State Publication 11003
                                           Office of Inspector General
                                               Revised May 2003




86   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                                 TABLE OF CONTENTS
                                 TABLE OF CONTENTS
                                TABLE OF CONTENTS

PREFACE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3
CONGRESSIONAL ACTIVITIES AND OUTREACH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

DEPARTMENT OF STATE
  SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    21
  INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       23
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    41
  INFORMATION TECHNOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      55
  INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          59
  APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          67
  APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    69
  APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   71
      Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        72
   APPENDIX 4: RESOLUTION OF REPORTS & RECOMMENDATIONS
      Previously Reported Signifcant Audit Recommendations . . . . . . . . . . . . .                                          73
      Audit Reports Without Management Decision . . . . . . . . . . . . . . . . . . . . .                                     74

BROADCASTING BOARD OF GOVERNORS
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    75
  APPENDIX 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      79
  APPENDIX 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  79
  APPENDIX 3: Savings and More Effective Use of Resources
     Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    80
     Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         80

LIST OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83
INDEX OF REPORTING REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003                                     87
                                      PREFACE




    The Inspector General Act of 1978, as amended, requires each Inspector
General to prepare a semiannual report summarizing the activities of that OIG for
submission to the appropriate congressional committees or subcommittees. The
attached report provides information on activities of the Department of State and
the Broadcasting Board of Governors during the indicated period ending March 31,
2003.

    The mission of the Office of Inspector General (OIG) is to serve as an inde-
pendent, objective reviewer and evaluator of the operations and activities of the
U.S. Department of State and the Broadcasting Board of Governors. OIG assesses
those operations and activities with a view toward promoting effectiveness, effi-
ciency, and economy and seeks out instances of fraud, waste, and mismanagement,
as we work to prevent them. OIG reports to the Secretary of State, the Broadcast-
ing Board of Governors, and the Congress, keeping them fully and promptly
informed of significant developments and serious concerns.




                                                   Anne M. Sigmund
                                                   Acting Inspector General
                                                   April 30, 2003




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   1
2   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                          EXECUTIVE SUMMARY



    During this semiannual reporting period, the Office of Inspector General (OIG)
reviewed and monitored Department of State (Department) and Broadcasting
Board of Governors (BBG) programs, activities and operations, continuing to focus
its work on four strategic goals:




The Department and the BBG adequately
protect the people, information, and facilities
under their control in the United States and
abroad.

    OIG performs specialized security inspections and audits in support of the
Department’s mission to provide effective protection to U.S. Government person-
nel, facilities, and sensitive intelligence information. During this reporting period,
OIG’s Office of Security and Intelligence Oversight conducted two audits, two
security evaluations, nine limited-scope and six full-scope security inspections, and
two follow-up reviews. OIG’s Office of Information Technology also conducted
information security reviews at four missions.

     OIG issued a status report on the protection of classified documents at the
Department’s Harry S Truman Building and found that the Department had made
substantial progress in improving protection of classified information, particularly
secure compartmented information (SCI) material. Most significantly, responsibil-
ity for protecting SCI was transferred from the Department’s Bureau of Intelligence
and Research to the Bureau of Diplomatic Security (DS). By following an incre-
mental transition plan, these bureaus completed the transfer of responsibility in
2002.

    OIG also conducted a follow-up review of the Unit Security Officer (USO)
Program. USOs are at the forefront of aiding the Department in the protection of
national security information from disclosure to unauthorized persons, and they
have oversight responsibility to ensure that classified information in their organiza-



Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   3
     tional unit is handled according to Department regulations. OIG found that the
     USO program has been only marginally successful. The program in its current form
     is piecemeal, which has resulted in inadequate program implementation and has
     produced poor results.

        OIG conducted information technology (IT) security reviews at four posts
     overseas, including Embassy Lisbon, Portugal, Embassy Madrid, Spain, Embassy
     Buenos Aries, Argentina, and Embassy Montevideo, Uruguay. OIG inspected the
     management, operational and technical IT security controls and found several
     opportunities for improving IT security at these embassies.




     The Department and BBG effectively, efficiently,
     and economically advance the foreign policy
     interests of the United States.

         OIG inspects each of the approximately 260 embassies and diplomatic posts
     throughout the world, as well as international broadcasting installations and the
     various bureaus and offices of the Department and BBG, to determine whether
     policy goals are being achieved and whether the interests of the United States are
     being represented and advanced effectively. During this reporting period, OIG
     conducted two consular reviews and inspected 12 embassies, two BBG programs,
     and the Bureau of Western Hemisphere Affairs.

         OIG’s review of the Department’s fraud prevention programs in domestic
     passport operations noted that the importance of the Bureau of Consular Affairs’
     (CA) passport antifraud program had come into sharper focus and under more
     scrutiny since the September 11, 2001, terrorist attacks. However, OIG found that
     DS did not always promptly investigate all case referrals, and the smuggling of
     children or substitution of the photographs of one child for another must be
     addressed. OIG recommended that CA eliminate the regulatory exemption that
     allows children under age 14 not to appear personally to apply for U.S. passports.
     Data sharing is now recognized as a key element in the fight against terrorism, but
     OIG found that CA and DS did not have sufficient access to intra-agency and
     interagency databases.

         OIG also reviewed the Department’s nonimmigrant visa issuance policy and
     procedures. OIG noted that the post-September 11, 2001, era should have wit-
     nessed immediate and dramatic changes in CA’s direction of the visa process but



4   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
that a fundamental readjustment by Department leadership regarding visa issuance
and denial had not taken place. OIG found that the Department still did not fully
carry out the consular function as part of a coordinated national effort to manage
border security and implement the Immigration and Nationality Act, in order to
prevent the travel of those who might present risks to the United States and its
citizens and also to facilitate legitimate travel.

    During this reporting period, OIG inspected Embassy Moscow and Consulates
General St. Petersburg, Vladivostok, and Yekaterinburg, Russia. OIG found that
the Ambassador provided effective leadership and direction, gave public diplomacy
high priority and actively promoted U.S. commercial interests. However, OIG noted
that the executive office needed to review the diffuse mission coordination struc-
ture to make it more focused and responsive. Executive oversight of the embassy’s
large assistance programs also needed to be tightened.

    In Eastern Europe, OIG inspected Embassy Zagreb, Croatia, and Embassy
Ljubljana, Slovenia. At Embassy Zagreb, OIG found the embassy, for the most
part, had the right personnel and administrative resources to perform its job. OIG
noted that economic issues were fundamental to most U.S. interests in Croatia and
should be given more concerted attention. Development of the new embassy
compound was initiated in 1999, and the project was progressing rapidly. The
embassy provided strong support to the Bureau of Overseas Buildings Operations
(OBO) team and worked very well with the Department to keep the project on
track.

    Embassy Ljubljana has set its highest priority on preparing Slovenia and Wash-
ington for the upcoming decision on whether Slovenia will be invited to join the
North Atlantic Treaty Organization (NATO). OIG found this priority designation
appropriate as this issue affects not only U.S.-Slovenian relations, but also broader
U.S. strategic interests in Europe and in the Balkans. However, given the limited
resources allocated to this Special Embassy Program (SEP) mission, OIG found
that the embassy was less able to exploit other opportunities in the relationship.
Embassy Ljubljana’s SEP designation may no longer be appropriate and should be
reviewed.

    In Europe and Eurasia, OIG also inspected embassies in the New Independent
States, including Embassy Almaty, Kazakhstan; Embassy Ashgabat, Turkmenistan;
Embassy Bishkek, Kyrgyz Republic; Embassy Dushanbe, Tajikistan; and Embassy
Tashkent, Uzbekistan. Security vulnerabilities, inadequate space and limited IT
infrastructures continued to be problems for these missions.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   5
         During this reporting period, OIG completed inspections of the Bureau of
     Western Hemisphere Affairs (WHA); Embassy Quito, Ecuador; Embassy Brasilia,
     Brazil; and the U.S. Mission to the Organization of American States. In its inspec-
     tion of WHA, OIG noted that the bureau provides political judgment and analysis
     to the U.S. Trade Representative and the Department of the Treasury and is ad-
     equately and capably staffed to provide this input. The emergence of a Depart-
     ment of Homeland Security most likely will increase the resource demands on the
     Department, falling heavily on the WHA region. OIG found that WHA should
     take a more assertive role in shaping and influencing relevant decisions, especially
     those with resource implications about physical facilities and staffing.

         The U.S. Mission to the Organization of American States points with satisfac-
     tion to successful efforts to restrain the growth of the budget of the Organization
     of American States (OAS). At the same time, financial support has not kept pace
     with the OAS-mandated functions, supported by the U.S. government. Sooner or
     later, the mismatch between policy objectives and funding levels must be ad-
     dressed. OIG recommended closer coordination on policy and funding issues.

         At Embassy Brasilia, OIG found that the new leadership team had revitalized
     the bilateral relationship and laid the groundwork for a positive and constructive
     engagement with the newly elected government. It has taken the initiative in
     redefining the bilateral agenda, underscoring Brazil’s centrality to U.S. interests in
     the region. It also has done an impressive job of integrating the efforts of the
     mission’s large and diverse country team. This includes, in particular, the important
     consulates general in Rio de Janeiro and Sao Paulo, cities that remain vital centers
     of economic, political, and cultural influence. Despite strong leadership by the
     head of OBO, pending buildings issues pose serious security concerns and consti-
     tute significant constraints on mission operations.

          At Embassy Quito, embassy security and counterterrorism cooperation with the
     government of Ecuador are at the top of the Ambassador’s priorities. Construction
     of new facilities in Quito, starting in 2004, and in Guayaquil, starting in 2005,
     presented an urgent need to review consular strategies and Consulate General
     Guayaquil’s contribution to mission performance goals and to centralize all consu-
     lar functions in Quito. Largely neglected, Consulate General Guayaquil suffered
     from management problems.

         In Africa, OIG inspected the U.S. embassies in Maputo, Mozambique, and Port
     Louis, Mauritius. At Embassy Maputo, the Ambassador had a good relationship
     with the Mozambican government and a very positive image among Mozambicans.




6   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
However, OIG found that embassy management needed to focus on morale issues
and on management control requirements. At Embassy Port Louis, the
Ambassador’s and the Department’s highest priority was to prepare for the Decem-
ber cabinet-level U.S.-Sub-Saharan Africa Trade and Cooperation Forum. Embassy
Port Louis was not rightsized. Personnel were working unusually long hours;
economic reporting could not get done; Seychelles and Comoros, to which the
Ambassador was accredited, were ignored; and morale had suffered.

    In the area of international broadcasting, OIG found that new initiatives
enacted by the Office of Cuba Broadcasting (OCB) director after July 2001 were
generally positive; however, OIG documented a number of deficiencies in their
implementation. OCB did not conduct a systematic personnel needs assessment
before contracting out for talent to meet its new programming requirements. In
addition, the procedures involving the hiring and use of talent contractors were
inappropriate and inadequate. OIG documented violations of government pro-
curement requirements and actions that created an appearance of favoritism.

    The Helsinki Regional Monitoring Office is one of BBG’s most active, but no
American officer from Embassy Helsinki had specific liaison responsibility to assist
with administrative support. OIG identified the need for an American liaison
officer to ensure that International Broadcasting Bureau (IBB) regional staff re-
ceived full value for administrative services provided by Embassy Helsinki under
the International Cooperative Administrative Support Services system (ICASS).
Overall, the office receives satisfactory administrative support.

    OIG conducted a survey of the merger of the Worldnet Television and Film
Service (WORLDNET) with the Voice of America (VOA). Congress approved the
plan with the understanding that a reorganization of VOA and the merger of
WORLDNET would result in efficiencies and cost savings. At present, however,
merger plans do not indicate immediate cost savings. To allow the agency time to
reorganize under a new VOA director, a new board chairman, and other new board
members, OIG made only one recommendation in its survey, which called for a
quarterly status report.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   7
     The Department and BBG have the necessary
     financial and support systems and controls to
     meet legal and operational requirements.

         OIG audits Department and BBG operations and activities to ensure that they
     are as effective, efficient, and economical as possible. OIG strives to improve the
     management and conduct of Department and BBG programs and activities by
     providing timely, balanced, and credible evaluations and financial audits that
     identify problems and recommend solutions. During this reporting period, OIG
     reviewed a broad range of issues, including munitions exports, demining programs,
     financial statement audits, the domestic travel card program, and the Foreign
     Affairs Systems Integration.

         In response to a congressional request, OIG reviewed the proposed procure-
     ment of a sports utility vehicle for Embassy Bogotá. The requestor expressed
     concern that the solicitation contained unnecessary features, had an unusually short
     response time, and was canceled after press reports highlighted the vehicle’s luxuri-
     ous features. Department officials acknowledged that mistakes were made in the
     vehicle procurement and they have taken corrective actions, including a new policy
     requiring that all draft solicitations receive supervisory approval before they are
     posted.

         OIG reviewed the Department’s end-use monitoring of munitions exports and
     found that the Office of Defense Trade Controls targeted end-use monitoring and
     verification for only a small number of license applications and approved licenses.
     Overseas, OIG observed that end-use monitoring was not consistently imple-
     mented. OIG believes that improved guidance and direction are needed, especially
     with regard to the requirements for conducting site visits. In addition, better
     reporting and communication are needed on the results of end-use checks.

         At the request of the Department, OIG conducted a limited review of the Asia
     Foundation’s indirect costs for fiscal years 1999, 2000, and 2001. OIG’s primary
     purpose was to determine whether the indirect cost structure complied with appli-
     cable regulations. OIG found that the indirect cost rates reported by the Asia
     Foundation in its Office of Management and Budget (OMB) Circular A-133 audit
     report were mathematically correct and that the indirect cost structure complied
     with OMB Circular No. A-122, Cost Principles for Non-Profit Organizations. OIG
     also reviewed several other grantees, including Youth for Understanding and the
     Open Society Institute, and conducted a follow-up review of Project Harmony.



8   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
    At the request of the Department, OIG reviewed allegations pertaining to
procurements in the Office of Humanitarian Demining Programs. OIG found no
evidence of impropriety in the award of a worldwide contract for demining sup-
plies and services. The process used to award this contract was well documented
and followed federal procurement regulations. OIG did not identify any evidence
that would confirm specific allegations that the “contract was awarded unfairly” or
that the procurement was “wired.”

     OIG conducted a review of the Department’s energy conservation efforts.
Since OIG last reported in 1994, the Department had made significant progress in
its energy program and in complying with energy-related legislation. The Depart-
ment reported that its energy consumption in federal buildings had been reduced by
seven percent. The Department has been successful in its use of energy savings
performance contracts, both domestically and overseas, and has taken action to
identify a best practice overseas where individual employees are notified of their
residential utility bills and how they compare to others.

    In the area of financial management, OIG’s contractor completed several audits
of Department financial statements, including the Department’s 2002 and 2001
Principal Financial Statements, the International Cooperative Administrative
Support Services’ 2001 and 2000 Financial Statements, and the International Joint
Commission’s 2001 and 2000 Principal Financial Statements. An independent
external auditor issued an unqualified opinion on the Department’s 2002 and 2001
Principal Financial Statements. Although an unqualified opinion was issued, the
report brings to management’s attention concerns about security over the unclassi-
fied network and the Paris Financial Service Center’s Accounting and Disbursing
System; the inadequacy of internal controls over the management of undelivered
orders and the collection and reporting of managerial cost accounting information;
and the inadequacy of the Department’s financial and accounting system, which is
both an internal control weakness and an issue of noncompliance with several laws
and regulations.

    OIG reviewed the domestic travel card program to determine whether the
Department had effective policies and procedures in place to manage the program.
Although the Department made a number of improvements, OIG found that it did
not have a process in place to address delinquencies in the 60-day past due cat-
egory, before the cards are automatically suspended. OIG also found that the
Department had not done enough to prevent and detect misuse of the cards. In
addition, OIG determined that the Department did not have controls in place to
ensure that coordinators were managing the appropriate accounts, transferring or
canceling accounts as needed, and identifying multiple accounts.



Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   9
           In the area of information technology, OIG reviewed the Department’s
      progress in implementing the Government Paperwork Elimination Act (GPEA)
      objectives. The Department submitted its initial e-government plan and subse-
      quent updates in a timely manner; however, the submissions had not adequately
      fulfilled OMB guidelines or met the administration’s e-government objectives. The
      Department’s ineffectiveness in meeting the reporting requirements can be attrib-
      uted to the lack of a centralized program management organization responsible for
      coordinating and overseeing e-government initiatives and fulfilling GPEA objec-
      tives on an enterprise-wide basis. OIG recommended that the Department estab-
      lish a full-time, e-government program management office to ensure the focus,
      accountability, and day-to-day coordination needed to meet GPEA requirements.

          OIG also reviewed the Department’s strategy for establishing a common
      knowledge management system under the auspices of the Foreign Affairs Systems
      Integration (FASI) program within the Department. Worldwide deployment of the
      system depends heavily on the results of the pilot test and evaluation. However,
      OIG found that poor timing, lagging content management, resource constraints,
      and unresolved system and technical problems hindered efforts to get pilot users
      trained, certified, and committed to using the system.




      The Department and BBG ensure accountability,
      and prevent or eliminate in programs and
      operations fraud, waste, abuse, and
      mismanagement.

          OIG investigates instances of fraud, waste, and mismanagement that may
      constitute either criminal wrongdoing or violation of Department and BBG regula-
      tions. During this semiannual period, OIG conducted investigations in the areas of
      contract fraud, theft, and employee misconduct.

          OIG opened a contract fraud investigation early in 2002 based upon a com-
      plaint that the president of a company that was providing explosives ordnance
      detection (EOD) dogs and handlers to the Department as a subcontractor had
      made false statements regarding the company’s qualifications to perform these
      services. It was also alleged that the company was providing the Department with
      dogs and handlers that could not meet the standards claimed by the company.
      Officials of the Bureau of Alcohol, Tobacco, and Firearms administered a stan-
      dardized test to six of the EOD dogs that the company had assigned to work at the



10   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
Department. All six of the dogs failed the test. In March 2003, the president of
the company was indicted by a federal grand jury on 26 felony counts of wire fraud
and two felony counts of submitting false claims to the government as a result of
this investigation. He was arrested subsequently on these charges.

    In a case of theft, OIG opened an investigation in April 2002, based on infor-
mation that the controller of a nonprofit organization receiving grant funds from
the Department had improperly written checks to herself and to members of her
family. OIG confirmed this and, in March, the controller pleaded guilty to a felony
charge and agreed to make restitution of more than $60,000.

    In an employee misconduct investigation, OIG received information that a
Foreign Service officer failed to file two required annual Financial Disclosure
Reports, despite repeated written reminders from his office. In January 2003, the
Department issued a three-day suspension without pay to the officer for his failure
to follow instructions by not filing the Financial Disclosure Reports. In March
2003, OIG referred the matter to the Civil Division of the U.S. Department of
Justice because of the officer’s continuing failure to file his Financial Disclosure
Reports. The civil case is currently pending.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   11
          CONGRESSIONAL ACTIVITIES AND OUTREACH




12   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
    CONGRESSIONAL ACTIVITIES AND OUTREACH



Reports Requested by Congress
    OIG conducted the following reviews in response to legislative mandates and
requests from Congress:

•   In response to a request from the Chairman of the Senate Caucus on Interna-
    tional Narcotics Control, OIG conducted a review following up on press
    reports that $2 million in U.S. aid to Colombian National Police
    counternarcotics efforts was missing.

•   As mandated by the FY 2003 Intelligence Authorization Act, OIG provided to
    the Senate Select Committee on Intelligence, the House Permanent Select
    Committee on Intelligence, the House International Relations Committee, and
    the Senate Foreign Relations Committee, two reports: “Status Report on the
    Protection of Classified Documents at State Department Headquarters”
    and “Follow-up Review of the Unit Security Officer Program.”

•   At the request of the previous Chairman of the House Committee on Govern-
    ment Reform, OIG reviewed the procurement process of a sports utility vehicle
    for Embassy Bogotá.

•   In response to a request from the Chairman of the Senate Caucus on Interna-
    tional Narcotics Control, OIG conducted a review of the procedures and
    processes involved in the issuance of nonimmigrant visas at U.S. missions
    worldwide.

•   As mandated by the Government Management Reform Act of 1994, an inde-
    pendent external auditor performed an audit of the Department’s FY 2002 and
    2001 Principal Financial Statements, under the direction of OIG.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   13
      Proposed Legislation Reviewed by OIG
          During this semiannual reporting period, OIG reviewed the Improper Payments
      Information Act of 2002 (HR 4878).

         The Inspector General also met with members and staff of the House and
      Senate to review and comment on a variety of issues and questions on operations
      and programs of the Department and the BBG.



      Outreach
          The Inspector General briefs all newly appointed ambassadors and new Foreign
      Service officers on the role and function of OIG, as well as on specific issues
      related to their respective assigned embassies. OIG also addresses new Civil
      Service employees on OIG’s role, mission, and services. During this reporting
      period, OIG participated in an ambassadorial seminar, a Foreign Service officer
      orientation, and two Civil Service orientations.

          In January, the assistant inspector general for inspections, the deputy assistant
      inspector general for inspections, and several inspection team leaders met with the
      director and staff from the Foreign Service Institute’s (FSI) School of Leadership
      and Management Studies for a briefing on FSI’s initiatives to bolster those programs
      and to provide insights on leadership and management issues noted during recent
      inspections.

          In February, the deputy assistant inspector general for inspections made a
      presentation to a conference of deputy chiefs of mission from U.S. embassies in
      Europe and the New Independent States on OIG’s observations on leadership and
      management of missions abroad. Also in February, in response to a request from
      the Bureau of Population, Refugees, and Migration, OIG staff conducted a training
      session on the inspection and investigative processes for the Inspector General’s
      Office at the United Nations High Commissioner for Refugees.

          In March, the assistant inspector general for inspections and the deputy assis-
      tant inspector general for inspections provided a briefing for a delegation from
      Taipei’s Foreign Ministry on inspection processes and procedures.




14   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
Review of the Department’s Federal
Financial Management Improvement Act
Remediation Plan
    Agency financial management systems must comply with the Federal Financial
Management Improvement Act of 1996 (FFMIA) requirements. If they do not, the
agency must establish a remediation plan, which includes the resources, remedies,
and intermediate target dates to bring the systems into substantial compliance. The
Department established a remediation plan in March 2000 for bringing its systems
into compliance by September 2003. The Department updated the plan in October
2001.

    Under FFMIA, OIG is required to report in its Semiannual Report to Congress
instances and reasons when an agency has not met intermediate target dates estab-
lished in the remediation plan. In its September 2002 Semiannual Report, OIG
reported that the Department had made considerable progress in its efforts to
comply with FFMIA and had reduced its degree of noncompliance. Although the
Department had extended intermediate target dates for three projects, it expects to
complete these projects by September 2003. In addition, the Department estab-
lished new milestones and target dates for a fourth project, the Central Financial
Planning System, and does not expect to complete this project until December
2004.

    In February 2003, as part of the audit of the Department’s 2002 and 2001
Principal Financial Statements, an independent contractor reported that the De-
partment had completed several phases of its remediation plan and had indicated
that the remainder of the plan was on schedule. However, the contractor found
that the Department’s remediation plan needed to address systems security and
management of grants and other types of federal assistance.


Progress in Implementing the Government
Performance and Results Act
     OIG continues to review the Department’s and the BBG’s progress in imple-
menting the Government Performance and Results Act of 1993 (GPRA), as part of
its regular audits and inspections.

    An independent public accountant performing the audit of the Department’s
FY 2002 Principal Financial Statements noted that the Department had signifi-
cantly improved its compliance with GPRA. However, the contractor reported that
the Department had not developed a comprehensive plan to validate and verify

Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   15
      performance data. OIG’s report on the Department’s domestic travel card program
      noted that developing objectives and identifying performance measures would be a
      beneficial management tool.



      OIG Support for the President’s
      Management Agenda
          As part of its efforts to improve the economy, efficiency, and effectiveness of
      Department and BBG operations, OIG reviews issues that support the manage-
      ment improvement initiatives set forth in the President’s Management Agenda
      (PMA). During the reporting period, OIG completed work and issued reports
      containing findings and recommendations for corrective action concerning Depart-
      ment and BBG activities related to the PMA initiatives of Strategic Management
      of Human Capital, Competitive Sourcing, Improved Financial Performance,
      Expanded Electronic Government (e-government), Budget and Performance
      Integration, and Rightsizing U.S. Overseas Presence, which are summarized below.
      Additional details can be found elsewhere in this report on the pages cited at the
      end of each summary.

      Strategic Management of Human Capital: A review of the merger of the
      Worldnet Television and Film Service with the Voice of America examined the
      status of the merger and its resource implications, including human resources.
      Although a number of merger plans had been developed, the integration that had
      taken place was largely ad hoc, and the merger still was incomplete. With the
      arrival of a new VOA director in September 2002, the merger plan was settled
      upon, and actions taken to finalize it. To facilitate the merger, OIG has raised a
      number of human resources management issues for consideration by VOA and has
      requested a quarterly status report until such time as the merger is completed (see
      p. 77—report IBO-A-03-04).

      Competitive Sourcing: OIG’s survey of the Department’s progress in complying
      with the Federal Activities Inventory Reform Act of 1998 found that the
      Department’s FY 2001 inventory of 3,046 full-time equivalent positions available
      for competition was developed in an inconsistent manner and, consequently, was
      inaccurate. OIG briefed Bureau of Administration officials on the need for a clear,
      consistent methodology for preparing future inventories. As a result, the Depart-
      ment has improved its competitive outsourcing efforts by taking a more compre-
      hensive, systematic approach in compiling the FY 2002 inventory. (see p. 41—
      report AUD-PR-03-10).



16   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
    A review to assess OCB implementation of programming changes recom-
mended that OCB conduct a systematic assessment of its program needs and the
extent to which they could be met by regular employees or would require outside
contractors, and then adjust the number of contractors hired, as necessary, to meet
this need. OIG also recommended that OCB develop and implement a detailed
competition plan and use all available options to expand competition for talent
contractors, and that it review all existing talent contracts and terminate and
recompete those that do not meet provisions of the Federal Acquisition Regulation
and agency procurement regulations (see p. 75—report IBO-A-03-01).

Improved Financial Performance: Department efforts to improve its financial
performance were addressed in OIG reports on the Department’s financial state-
ments, compliance with federal financial systems requirements, and the accuracy of
the Department’s financial information.

    OIG used an external auditor to perform audits of the Department’s Principal
Financial Statements, the International Joint Commission’s Principal Financial
Statements, and the ICASS Financial Statements. Although each of these financial
statements received an unqualified opinion, the auditors identified several internal
control weaknesses and instances of noncompliance with laws and regulations,
including system security and other issues related to the Department’s financial
management systems. (see p. 49, 50-51—reports AUD/FM-03-01, 17, and 18).

    A vulnerability assessment of the ICASS system found that, although specific
security features appeared to function correctly and were well managed, certain
vulnerabilities were detected during a technical vulnerability assessment. Because
many of the same problems were found during vulnerability assessments of other
Department applications, suggesting that they might exist throughout the
Department’s IT infrastructure, OIG recommended that they be addressed on a
Department-wide basis (see p. 50— report AUD/FM-03-03).

    A number of OIG management inspections of overseas missions also recom-
mended improvements in financial practices, including replacing cash payments and
currency invoices with electronic funds transfers, to the extent possible.

Expanded Electronic Government: OIG’s review of the Department’s imple-
mentation of GPEA found that, although the Department had submitted its initial
e-government plan and subsequent updates in a timely manner to meet OMB
reporting requirements, these submissions did not adequately fulfill OMB guide-
lines or meet the administration’s e-government objectives. More specifically, the
initial plan lacked an overarching GPEA vision and strategy, and subsequent




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   17
      updates, while articulating the strategy better, failed to link the strategy with key
      planning processes and an enterprise architecture. In response to OIG recommen-
      dations, the Department has taken steps to improve oversight and coordination of
      its e-government initiatives and to enhance progress in meeting GPEA objectives,
      including establishing a centralized e-gov program management office to coordinate
      e-government activities and planning and to develop a Department-wide approach
      for e-government and GPEA efforts. The Department also approved a comprehen-
      sive plan to improve its IT capital planning processes to ensure that e-government
      is central to all IT planning and decision-making (see p. 55—report IT-A-03-01).

           An OIG review of the Department’s efforts to establish a common knowledge
      management system for web-based information sharing and collaboration among
      overseas missions found that the FASI project did not prioritize or ensure sufficient
      user input in developing requirements and did not adequately consider using
      existing systems as potentially less costly alternatives or coordinate its approach
      with related projects to avoid duplication. Based on OIG recommendations and
      other assessments, the Under Secretary for Management closed out the FASI
      project and its program management office and announced plans to address the
      requirements for interagency connectivity and collaboration as part of a broader
      initiative to replace the Department’s messaging system. (see p. 56—report
      IT-A-03-02).

      Budget and Performance Integration: OIG’s review of the FASI project also
      included a recommendation that, within the context of the broader messaging
      system initiative, the Department develop cost estimates, funding strategies, and a
      cost-benefit analysis for a proposed collaborative initiative, before requesting
      commitment by the foreign affairs agencies.

      Rightsizing U.S. Overseas Presence: OIG inspections have reviewed rightsizing
      of U.S. overseas presence as one of the areas of emphasis surveyed during each
      mission management inspection. Many of the inspection reports issued during the
      past six months have identified rightsizing (e.g., staffing), resource, security, and
      support issues affecting each mission’s ability to accomplish its goals and objec-
      tives. In general, staffing was found to be appropriate and adequate to meet U.S.
      foreign policy goals. However, hard-to-fill missions increasingly have had to use
      alternative staffing methods to achieve their goals. OIG expressed concern about
      the effectiveness of NSDD-38 (National Security Decision Directive) in preventing
      the accretion of programs and staff by agencies other than the Department. As
      necessary, OIG evaluated the requests for additional staffing and made recommen-
      dations on specific cases, supporting some and disagreeing with others. Lack of




18   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
adequate and secure space also continues to hamper embassies’ efforts to carry out
their missions and remains a major impediment to employees’ ability to function
efficiently. Additional details on concerns at specific missions are addressed on
pages 23-39.

    A review of nonimmigrant visa issuance policy and procedures recommended
that the Department assess and reallocate consular workloads worldwide, deter-
mine where consular workloads do not require a full-time consular position, and
create regional consular positions to handle the workload at missions with a limited
demand for consular services (see p. 24—report ISP-I-03-26).




                                     SECURITY




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   19
                                            SECURITY




20   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                                     SECURITY



     During this reporting period, the Office of Inspector General, Office of Secu-
rity and Intelligence Oversight conducted two audits, two security evaluations, 15
security oversight inspections, and two follow-up reviews. Nine of these inspec-
tions were conducted in conjunction with management reviews by OIG’s Office of
Inspections and were limited to an examination of physical security and emergency
preparedness. Full-scope inspections, covering the full-range of a mission’s security
program, were conducted at six missions.

    Because these reports discuss specific security vulnerabilities at the Department
and its missions, report summaries will be published as a separate, classified annex
to this report. A list of the classified reports issued during this semiannual period
may be found in Appendix 2 (page 69) of this report.



Security Audits


Status Report - Protection of Classified
Documents at State Department Headquarters
(SIO-A-03-30)

    In response to Section 832 of the FY 2003 Intelligence Authorization Act,
OIG issued a status report on the Protection of Classified Documents at State
Department Headquarters. OIG found the Department has made substantial
progress in improving the protection of classified information, particularly SCI
material, since several serious security breaches occurred between 1998 and 2000.
Most significantly, at the request of a former Secretary of State, in response to
OIG’s 1999 report, responsibility for protecting SCI material was transferred from
the Department’s Bureau of Intelligence and Research to DS. Following an incre-
mental transition plan, the two bureaus completed the responsibility transfer in



Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   21
      2002. Additionally, in response to previous OIG’s audit recommendations, the
      Department advised that DS:

           •   implement procedures for controlling accountable and non-accountable
               SCI documents according to Director of Central Intelligence Directive
               requirements;

           •   establish procedures to ensure that vulnerabilities identified by technical
               surveillance countermeasure evaluations are corrected promptly and began
               introducing aggressive procedures to detect and correct unknown technical
               and physical security vulnerabilities;

           •   strengthen internal procedures for adjudicating security violations and
               referring valid violations to the Department’s Bureau of Human Resources
               (HR) for possible disciplinary action; and

           •   introduce a procedure that provides Department bureaus and offices with
               a means to account for employees who have taken required annual refresher
               security awareness training.




      Follow-up Review of the Unit Security Officer
      Program (SIO-A-03-35)

          Also in response to the FY 2003 Intelligence Authorization Act, OIG con-
      ducted a follow-up review of the Department’s USO program. OIG had initially
      reviewed the USO program as part of its audit, Protecting Classified Documents at
      State Department Headquarters (SIO/A-99-46, September 1999).

          USOs are in the forefront of aiding the Department in the protection of na-
      tional security information from disclosure to unauthorized persons, although the
      responsibility for protection of classified information is shared among DS, principal
      USOs, bureau executive directors, supervisors, and employees. USOs have over-
      sight responsibility to ensure that classified information in their organizational unit
      is handled according to Department regulations.

          The results of this follow-up review indicated that, although USO training and
      awareness have improved since the initial audit, overall the USO program has been
      only marginally successful. The program in its current form is piecemeal, which has
      resulted in inadequate program implementation and poor results.



22   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                                  INSPECTIONS



Review of Domestic Passport Operations, Phase
II: Fraud Prevention Programs (ISP-CA-03-25)

    The importance of CA’s passport antifraud program has come into sharper
focus and under more scrutiny since the September 11, 2001, terrorist attacks.
According to DS and fraud prevention managers, U.S. attorneys are now showing
more interest in prosecuting passport fraud cases. DS, however, does not always
promptly investigate all case referrals. The availability of DS field office investiga-
tors is below the authorized level because many agents are either temporarily filling
security officer positions at embassies abroad or are working domestic protective
details.

    Smuggling of children or substitution of the photographs of one child for
another must be addressed. Detection of passport fraud involving substitution and
child smuggling is gathering momentum throughout the country. At the time of the
inspection, Department regulations did not require children under age 14 to appear
personally when passport applications were executed on their behalf (see sidebar).
The personal appearance of minors is a strong fraud deterrent. The expanded
network of agents who accept passport applications can easily accommodate the
personal appearance of all minors under age 14. OIG recommended that CA
eliminate the regulatory exemption that allows children under age 14 not to appear
personally to apply for U.S. passports.

     Data sharing is now recognized as a key element in the fight against terrorism.
CA and DS do not have sufficient access to intra-agency and interagency databases.
It is anticipated that CA will have access to components of the DS database
currently under development. Neither bureau, however, has determined how best
to gain access to other potentially available databases. The El Paso Intelligence
Center (EPIC) is an interagency data-sharing entity, and CA and DS should deter-
mine the appropriate staffing requirements to maximize access to EPIC’s inter-
agency databases.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   23
          Training of individuals authorized to accept passport applications needs a
      systemic solution. This is the Department’s first line of defense in controlling
      passport fraud. CA’s Office of Passport Services should develop and implement
      training schedules for all acceptance agents. There is no definitive written guidance
      on who manages the passport antifraud program. The Office of Fraud Prevention
      Programs and the Office of Passport Policy and Legal Advisory Services share
      program responsibilities. This has led to uncertainty among some passport agency
      personnel as to where to seek advice on complex cases.



                                  Department Agrees to Require
                                 Personal Appearance of Children
               The Bureau of Consular Affairs has recently notified posts abroad
               that it plans to revise passport regulations and the passport appli-
               cation form later this year so that all children under age 14 will be
               required to appear personally when passport applications are
               executed on their behalf. These changes should reduce the
               numbers of passport fraud cases involving minor children.




      Review of Nonimmigrant Visa Issuance Policy
      and Procedures (ISP-I-03-26)

          In response to a request from the Chairman of the Senate Caucus on Interna-
      tional Narcotics Control, OIG conducted a review of the procedures and processes
      involved in the issuance of nonimmigrant visas at U.S. missions worldwide.

           Until the events of September 11, 2001, the visa process was seldom consid-
      ered a major element of national security. This is so despite the fact that, after the
      first attack on the World Trade Center in 1993, Congress mandated the issuance of
      machine-readable visas and Consular Lookout and Support System (CLASS) name
      checks worldwide, while authorizing a visa application fee to provide funding to
      make this possible.

          The post-September 11, 2001, era witnessed immediate efforts to effect dra-
      matic changes in CA’s direction of the visa process. However, Department leader-
      ship has not universally accepted this fundamental readjustment regarding visa



24   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
issuance. The Department, as a whole, still does not fully use the consular function
as part of a coordinated national effort to manage border security and implement
the Immigration and Nationality Act, in order to prevent the travel of those who
might present risks to the United States and its citizens and also to facilitate legiti-
mate travel. CA has begun to address shortcomings identified after September 11,
2001, that include:

    •   lack of uniformity in visa processing from mission to mission, and

    •   lack of a planning staff to develop and advance options for consular input
        into border security initiatives and directions.

    In the months since September 11, 2001, CA has made significant progress in
bringing uniformity to the visa process. OIG found, however, that more needs to be
done if the visa process is to be made more secure. It must be considered as a part
of a larger process, beginning with visa issuance and continuing through the admis-
sion of aliens to the United States and tracking them while they remain in this
country. As Congress recognized when it mandated worldwide implementation of
machine-readable visas, financial and human resources must be provided to realize
these changes. Perhaps the most significant problems addressed by this report were
in human resources. Insufficient numbers of officers, inexperienced officers in
management positions, and under-graded positions were identified as potential
vulnerabilities. The Department, at every level, must rethink its approach to this
task and devote the necessary resources and effort to it. New leadership in CA is
committed to continuing efforts to minimize the vulnerabilities in visa processing.

    This review was begun before the passage of legislation creating the Depart-
ment of Homeland Security and vesting it with major responsibilities with regard to
visas. Nevertheless, the findings of this report and the recommendations remain
valid no matter where the ultimate authority for visa policy and issuance resides.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   25
      Bureau of European and Eurasian Affairs


      Inspection of Embassy Almaty, Republic of
      Kazakhstan (ISP-I-03-01)

          Despite entrenched opposition in some parts of the Kazakhstani government to
      the principles inherent in economic reform and democratization, Embassy Almaty
      has been extremely active in both areas. There are obstacles to achieving these
      goals. Greater program coordination is called for, but under good front office
      leadership, U.S. policy is being well implemented.

          Nonetheless, effective and proper U.S. representation to the government of
      Kazakhstan requires that Embassy Almaty be relocated to Astana, the new capital.
      Until the embassy moves, the day-to-day conduct of relations will suffer, and the
      development of crucial personal relationships will be made more difficult. Political
      and economic reporting would benefit from more embassy contact with govern-
      ment leaders in the capital and more travel to areas outside Astana and Almaty,
      particularly to the energy-rich west and to the south. Coverage of the capital will
      not increase until an interim office is established, but more field travel and report-
      ing could be done now, and Foreign Service nationals (FSNs) should be more
      engaged and productive.

          The consular section is well managed and should be granted authority to
      process immigrant visas for residents of Kazakhstan and neighboring Central Asian
      countries. In order to maintain adequate supervision, training, and customer ser-
      vice, the consular manager position must continue to be filled by an experienced
      mid-level officer.

          The embassy’s greatest resource challenge is to provide safe, adequate facilities
      in Almaty and Astana. For the next four years, the burden of this challenge will
      continue to test the embassy’s efficiency and its management controls. Recognizing
      this, the embassy and the Bureau of European and Eurasian Affairs (EUR) have
      properly increased administrative staff.

         Embassy Almaty generally has good management controls in place, but the
      heavy workload in the administrative section militates against them in some areas.
      Weaknesses that should be corrected exist in cashier operations, funds account
      management, the motor pool, and warehouse property.



26   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
Inspection of Embassy Ashgabat, Turkmenistan
(ISP-I-03-02)

    Embassy Ashgabat has developed a positive relationship with the chief of
state, overcoming his neutrality policies and obtaining important benefits for the
war against terrorism. The most important gain from this engagement is a U.S. Air
Force humanitarian refueling operation. Support for this effort should be made the
mission’s prime goal.

    Policy implementation is good. It includes assistance offers to the host govern-
ment, but more promising are those public diplomacy and assistance efforts that
reach out to the country’s next generation of leaders. Embassy Ashgabat has
experienced leadership and concentrates on the issues that matter most. Coopera-
tion among the five agencies present is good.

    Turkmenistan is not receptive to security and law enforcement assistance
programs. Although $10.6 million is available for such activities in FY 2002, only a
fraction of this has been obligated, and still less has been actually delivered. Offers
of official aid are greeted with indifference and hesitation. Despite the obstacles,
the embassy continues to promote nonproliferation, defense, and counternarcotics
objectives.

     In spite of this year’s unexpected challenges—authorized departure, evacuation
of Peace Corps volunteers, establishment of a U.S. military presence, a heavy
visitor workload, and the accompanying stress—Embassy Ashgabat has managed
modernized key operations and made improvements in local staff programs.




Inspection of Embassy Bishkek, Kyrgyz Republic
(ISP-I-03-03)

     Embassy Bishkek’s success in enabling and supporting the combat airbase used
by the United States and its allies with respect to actions in Afghanistan is notewor-
thy. It has met the coalition’s needs with respect to its base while sustaining a wide-
ranging relationship with the host government. The embassy has pursued an ex-




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   27
      haustive schedule in trying to satisfy both these priorities. With the base estab-
      lished, the embassy can return to a more normal workweek. Embassy management
      should set the example in doing so.

           Under close supervision by the Ambassador and deputy chief of mission
      (DCM), the combined political/economic section has reported on significant events
      and trends affecting the bilateral relationship, advocated support for the war on
      terrorism, and encouraged democratic and economic reform. Efforts to establish
      and maintain the coalition military base and support a steady stream of official
      visitors have dominated the section’s time in recent months. These events have
      required a level of personal effort and commitment that is admirable, but that
      cannot be sustained indefinitely.

           After ten years of hard work developing government, media, academic, and
      other contacts at all levels, the public affairs section now conducts a broad-based
      and well-conceived array of programs of value to the U.S. government, particularly
      as it relates to the war on terrorism.

         The embassy has improved the IT and security infrastructure, even during this
      busy period. The embassy also benefits from strong support from regional offices in
      Frankfurt and Almaty. If the administrative section sets clear goals and builds a
      team, it can begin to apply innovations practiced at other embassies.

        Embassy Bishkek’s new, prefabricated chancery works well and is a tribute to
      OBO, which will use it as a model for future projects. Management controls at
      Embassy Bishkek are in place but need strengthening.



                              Best Practice: Local FSN of the Year

               Issue: Supervisors often neglect the awards program, and stan-
               dards and criteria for awards sometimes vary among supervisors,
               offices, and agencies.

               Response: Embassy Bishkek established an “FSN of the Year”
               award.

               Result: The award draws attention to the awards program, is
               given on an annual basis, and provides a standard against which
               to measure all other awards.




28   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
Inspection of Embassy Dushanbe, Republic of
Tajikistan (ISP-I-03-04)

    OIG found that Embassy Dushanbe—a very small, isolated, frontline embassy
in a remote but now strategic country—has borne, with distinction, a much heavier
load than it is equipped to carry. With good leadership and a deep personal com-
mitment by all involved, it has obtained diplomatic, military, and logistical support
for the war on terrorism from the Tajikistani government.

    The embassy suffers from many handicaps, beginning with the anomaly of
being officially located in Almaty, Kazakhstan, but increasingly working out of
Dushanbe. Embassy Dushanbe is not staffed, housed, or equipped to play the role
that the expanding U.S.-Tajikistani relationship will require. Improvements are
under way, but some of the security restrictions that were imposed in response to
previous conditions should be lifted if a new threat analysis indicates that such a
change is appropriate.

   Policy implementation, including reporting, is necessarily operational and
program-related. Core functions are adequately performed but limited by
overarching program demands and scarce resources.




Inspection of Embassy Ljubljana, Slovenia
(ISP-I-03-05)

    Embassy Ljubljana has set its highest priority on preparing Slovenia and Wash-
ington for the upcoming decision on whether Slovenia will be invited to join
NATO. This priority designation is appropriate, as this issue affects not only U.S.-
Slovenian relations but also broader U.S. strategic interests in Europe and in the
Balkans. However, given the limited resources allocated to this SEP mission, the
embassy is less able to exploit other opportunities in the relationship.

    The embassy has grown recently to seven officers and will increase further with
the addition of a temporary political/military position and a possible new assistant
defense attaché position. This is a substantial staff for a SEP mission, but may be
appropriate, given the increased workload associated with Slovenia’s NATO
candidacy and membership.



Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   29
          Embassy Ljubljana’s SEP designation may no longer be appropriate and should
      be reviewed. Political and economic reporting is solid. Under the current Ambassa-
      dor, the embassy has improved its reputation for objective reporting. The public
      affairs section is fully engaged and effective but is straining to handle multiple
      demands with minimal staff.

          The embassy, with assistance from OBO, should actively pursue the possibility
      of acquiring property adjacent to the mission to improve operational efficiency and
      security and to address a potential increase in the consular workload that would
      result from any elimination of the visa waiver system.




      Inspection of Embassy Moscow and Consulates
      General St. Petersburg, Vladivostok, and
      Yekaterinburg, Russia (ISP-I-03-07)

          Despite the end of the Cold War, the Russian relationship remains central to
      the achievement of important U.S. security goals—reducing strategic weapons,
      protecting nuclear materials, controlling weapons of mass destruction, promoting
      missile defense, and developing the NATO relationship. The bilateral relationship
      now also encompasses a wide spectrum of U.S. international policy and program
      activities, as evidenced by the presence of 17 executive branch agencies, assistance
      programs totaling about $1.1 billion, and exchange programs involving 5,000
      people annually.

          The bureaucratic culture of the Soviet era remains, however, obstructing
      implementation of major U.S. programs and activities. There also is widespread
      skepticism and some opposition among Russian elites, military, and the general
      public to the developing relationship with the United States. The embassy is ad-
      dressing this in its public diplomacy programs and activities.

          The embassy is large and complex, and handles an impressive array of policy
      issues. The Ambassador, ably supported by the DCM, gives the embassy effective
      leadership and direction. Overall, country team agencies work well together under
      the Ambassador’s lead. The Ambassador puts public diplomacy high on his per-
      sonal list of priorities and actively promotes U.S. commercial interests. However,
      the executive office needs to review the present, diffuse mission coordination
      structure to make it more focused and responsive. Executive oversight of the
      embassy’s large assistance programs also needs to be tightened.



30   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
    The large public affairs section efficiently manages a $40-million budget for
exchanges and cultural activities. The press office performs exceptionally well,
supporting the Ambassador and other mission elements. The section needs a broad
public diplomacy plan as a framework for interaction with other mission elements
on Mission Performance Plan objectives, including regional outreach. It is time for
the embassy to consider establishing a Fulbright Commission.

    Reversing long-standing negative perceptions within the embassy and among
the Russian public, the consular section now receives praise for its performance
and its increasingly successful public outreach efforts. This has been accomplished
in the face of the section’s growing workload and a forced move, for security
reasons, to nearly dysfunctional work facilities.

    The administrative section has made progress in correcting serious long-stand-
ing financial management weaknesses, but there is still much to be done. In past
years, the embassy did not effectively use its budgetary resources. From FY 1998 to
FY 2001, $10 million in program, ICASS, and security allotments were left idle and
ultimately forfeited by the mission. The embassy did not take initial corrective
action until last year.

   The embassy needs to integrate the consulates general more completely into
mission planning and programming, and the leadership role of the consuls general
should be better defined and strengthened in the consular and public diplomacy
oversight functions.

    Management controls at the consulates are taken seriously, but there are defi-
ciencies. Inventory controls are inadequate and contracting and procurement
operations need more oversight and corrective measures.




Inspection of Embassy Tashkent, Republic of
Uzbekistan (ISP-I-03-09)

    After the events of September 11, 2001, Uzbekistan became a major partner in
the war against terrorism. A dual policy promotes the strategic partnership while
emphasizing that only Uzbekistani political and economic reforms will make it
sustainable. Implementation is tightly focused on four core priorities that begin
with counterterrorism. The embassy maintains a positive dialogue that is credited




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   31
      with contributing to recent encouraging developments. A measure of the expanded
      bilateral relationship is a trebling in U.S. assistance programs to approximately $162
      million in FY 2002. With seven entities providing law enforcement and security
      assistance, a formal coordinating mechanism is needed.

          Embassy Tashkent’s political/economic section reflects mission priorities. The
      public diplomacy section manages an active program well. Embassy leadership sees
      the section as a key policy implementation asset.

           The consular section suffers from a severe lack of workspace that hinders
      efficiency. Ongoing initiatives to expand the core office and interviewing areas to
      permit initial document processing at the public entrance and to handle informa-
      tion and correspondence from offsite will help to reduce and, eventually, eliminate
      chronic backlogs in visa interviews. OIG commends the embassy and OBO for
      addressing these urgent needs now, before the new chancery is completed in 2004-
      2005.

          Pressure for growth and administrative services, especially visitor support,
      peaked in recent months and is receding now. Nevertheless, Embassy Tashkent has
      one of the most overcrowded chanceries imaginable, and this poses a serious
      challenge to staff morale, health, and safety. By properly controlling permanent
      and temporary staff growth and carefully managing space, the embassy may amelio-
      rate the effects of overcrowding until a new chancery is available.




      Inspection of Embassy Zagreb, Croatia
      (ISP-I-03-10)

          Embassy Zagreb, for the most part, has the right personnel and administrative
      resources to perform its job. Although the staff appears large for a country the size
      of Croatia, many staff with OBO or the U.S. Agency for International Develop-
      ment (USAID) will be phased out as the new embassy compound is completed and
      Croatia graduates from the Support for East European Democracy (SEED) pro-
      gram. The remaining staff is appropriate for the embassy’s mission.

          The Department and OMB have reduced assistance from the SEED program to
      Croatia and other countries in the region. There was little consultation on the cuts
      with affected embassies and little evidence of any objective assessment of the




32   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
decision’s implications for broader U.S. interests in Croatia and the region. Embassy
Zagreb should provide an assessment of those implications for the Department.

     Although the embassy has fully addressed the policy priorities established in
coordination with the Department, neither the embassy nor the Department has
fully integrated economic issues into those priorities. Economic issues are funda-
mental to most U.S. interests in Croatia and now need to be given more concerted
attention.

    Development of the new embassy compound was initiated in 1999, and the
project is progressing rapidly. The embassy provided strong support to the OBO
team and worked very well with the Department to keep the project on track. It
also established an effective planning mechanism to prepare for the move and to
anticipate problems associated with it.



Bureau of African Affairs


Inspection of Embassy Maputo, Mozambique
(ISP-I-03-06)

     The Ambassador has a good relationship with the Mozambican government and
a positive image among Mozambicans. However, in OIG’s administrative services
satisfaction questionnaire, personnel awarded low marks to embassy management
for its inattention to morale. Embassy management needs to demonstrate greater
effectiveness in dealing with morale issues.

    Washington agencies expressed considerable interest in Mozambique’s democ-
racy, the political participants, and prospects for economic reform. Notwithstand-
ing general satisfaction with the reporting, readers in both the Department and
other agencies want more analysis on where the embassy sees Mozambique going in
the future.

    Embassy Maputo has critical space needs. Embassy efforts to occupy office
space to be vacated by USAID will alleviate some of these space needs in the short
term. The embassy is on the OBO priority list for a new facility in 2006. Replace-
ment of the Maputo chancery was reviewed recently by OBO and was recon-
firmed. The Marine house also should be replaced.


Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   33
          The administrative section needed attention. Although systems support was
      good and budget and fiscal work were performed adequately, human resources and
      general services (notably maintenance) required front office attention. Communica-
      tion within the administrative section, and between the section and clients, had
      been limited. Overall dissatisfaction with administrative services has had a nega-
      tive effect on embassy morale. Embassy management also needed to focus more
      systematically on management control requirements. Improvements were needed in
      controls affecting property management, vehicle disposal, motor pool operations,
      procurement, cashier operations, financial management operations, and human
      resources.




      Inspection of Embassy Port Louis, Mauritius
      (ISP-I-03-08)

          At Embassy Port Louis, the Ambassador’s and the Department’s highest priority
      was to prepare for the December 2002 cabinet-level U.S.-Sub-Saharan Africa Trade
      and Cooperation Forum. High-ranking U.S. participation was expected at the trade
      forum, but the embassy did not possess classified e-mail capability, hampering
      embassy effectiveness in preparing for the conference.

          Embassy Port Louis is not rightsized. Personnel are working unusually long
      hours; economic reporting cannot get done; Seychelles and Comoros, to which the
      Ambassador is accredited, are ignored; and morale has suffered. The assignment of
      a new security officer and information management specialist will ease the burden
      on the embassy.



      Bureau of Western Hemisphere Affairs


      Bureau of Western Hemisphere Affairs
      (ISP-I-03-23)

          Canada and Mexico were the most important U.S. trading partners in 2001, and
      overall U.S. trade with countries in the Western Hemisphere was higher that year
      than with the European Union. International financial matters, such as the ongoing

34   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
crisis in Argentina, also loom large. WHA provides political judgment and analyses
to the U.S. Trade Representative and the Department of the Treasury. WHA is
adequately and capably staffed to provide this input.

    The Bureau Performance Plan identified combating “endemic corruption” as its
highest priority. The Assistant Secretary has been vigorous in articulating this
position, and the bureau is correct in stressing this both within the administration
and in diplomatic dialogue with governments throughout the region.

     The bureau’s Office of Policy Planning and Coordination carries out a very
effective and important coordinating role within the Department and in interagency
forums. However, the press of daily business and the need to respond to crises
leaves little time for attention to the longer-term planning function. The planning,
is in part, accomplished through a series of country-focused “offsite” sessions. It is
not clear how effectively the bureau pursues ideas that emerge from such sessions.

     The emergence of a Department of Homeland Security most likely will in-
crease the resource demands on the Department, falling heavily on the WHA
region. For example, since September 11, 2001, 19 positions have been added at
U.S. missions in Canada, and 34 at those in Mexico. WHA should take a more
assertive role in shaping and influencing relevant decisions, especially those with
resource implications about physical facilities and staffing. WHA is commended for
its efforts to cooperate closely and productively with other entities in the Depart-
ment and across federal, state, and local government.

     OIG agrees with the many outside observers who perceive the integration of
public diplomacy officers in WHA to have been exemplary. At the same time, there
is some WHA front office frustration with public outreach programming. OIG
questions the pattern of augmentation and dispersion of staff assigned to handle
these efforts.

    WHA manages its financial resources well. Its management of human re-
sources, particularly for overseas missions, is marked by innovative practices such
as job sharing, training, and aggressive recruiting for voluntary coverage of staffing
gaps. Significant but rectifiable deficiencies exist in controls over personnel perfor-
mance evaluation and property management.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   35
      Inspection of the U.S. Mission to the
      Organization of American States (ISP-I-03-24)

           The U.S. Mission to the Organization of American States (USOAS) points with
      satisfaction to successful efforts to restrain the growth of the budget of the OAS.
      At the same time, financial support has not kept pace with the OAS-mandated
      functions that are supported by the U.S. government. Sooner or later, the mismatch
      between policy objectives and funding levels must be addressed.

          Funding for OAS operations passes through USOAS but is budgeted initially by
      the Bureau of International Organization Affairs (IO) or other Department entities,
      notably WHA and the Bureau of International Narcotics and Law Enforcement
      Affairs. In budgeting, IO tends to give priority to matters under the United Nations
      system, which, in effect, reduces attention to the OAS. There should be closer
      coordination on policy and funding issues. USOAS commands great respect within
      the OAS for the professionalism, skill, and success with which mission representa-
      tives pursue U.S. goals and objectives.

          USOAS operates both as a multilateral diplomatic mission and as an adjunct to
      WHA. Maintaining a distinct identity is a continuing challenge for the mission.
      USOAS does not have significant visibility with Department principals. All corre-
      spondence to Department principals is passed through WHA and forwarded under
      the signature of that bureau’s leadership.




      Inspection of Embassy Brasilia, Brazil, and
      Constituent Posts (ISP-I-03-12)

          Since their arrival in the spring of 2002, the new Ambassador and DCM have
      revitalized the bilateral relationship, underscoring Brazil’s centrality to U.S. interests
      in the region. They also have done an impressive job of integrating the efforts of
      the mission’s large and diverse country team, including the important consulates
      general in Rio de Janeiro and Sao Paulo.

          Recognizing the new security imperatives following the terrorist attacks of
      September 11, 2001, the mission is moving ahead with appropriate modifications in
      its management of consular operations. In that context, it has argued persuasively



36   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
that plans made before September 2001 to relocate some visa operations from Rio
de Janeiro to Sao Paulo, which assumed continued use of travel agency referrals
and waivers of most personal interviews, should be revised, but in such a way as to
conform with the original congressional intent to fund a smaller consular operation
in Rio de Janeiro and a larger consular operation in Sao Paulo.

                                                                       Despite strong
                                                                 leadership by the
                                                                 head of OBO, and
                                                                 the progress made
                                                                 to date by OBO,
                                                                 pending buildings
                                                                 issues pose serious
                                                                 security concerns
                                                                 and constitute
                                                                 significant con-
                                                                 straints on mission
                                                                 operations. Three
                                                                 ongoing infrastruc-
                                                                 ture projects are
                                                                 critical to the
                           Embassy Brasilia                      mission’s ability to
function effectively: completing the newly acquired consulate compound in Sao
Paulo; finding a new site for Consulate General Rio de Janeiro; and upgrading
systems and easing space strains on the chancery in Brasilia. Some of these
projects are longstanding. The search for a new facility in Rio de Janeiro, for
example, has been ongoing for at least seven years. OBO should give high priority
to concluding these projects as quickly as possible.

    Additional staffing is needed in several key areas. Given the importance of U.S.
interests in Brazil, WHA and HR should consider requested increases for consular
staffing in Recife, for the economic and administrative functions in Sao Paulo, and
for public diplomacy operations in Recife and Sao Paulo.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   37
      Inspection of Embassy Quito, Ecuador, and
      Constituent Post (ISP-I-03-19)

          At Embassy Quito, the Ambassador and DCM have contributed much-needed
      direction and management by articulating clear goals and coordinating interagency
      counternarcotics and law enforcement activities. Embassy security and
      counterterrorism cooperation with the government of Ecuador are at the top of the
      Ambassador’s priorities.

           Construction of new facilities in Quito starting in 2004 and in Guayaquil
      starting in 2005 presents an urgent need to review consular strategies and Consu-
      late General Guayaquil’s contribution to mission performance goals and to central-
      ize all consular functions in Quito. Largely neglected, Consulate General
      Guayaquil suffers from management problems.

          Narcotics affairs and interdicting trafficking are the embassy’s most important
      program activity. Funding for the program to support and train Ecuadorian police
      and military units increased from $0.5 million in 1998 to $15.7 million in 2002 and
      is expected to grow further. Administrative oversight has been limited by inad-
      equate staffing to perform end-use monitoring.

          Embassy Quito’s administrative section deserves praise for providing FSN’s
      with a new, superior retirement system and for obtaining about $1 million in annual
      value-added tax reimbursement from the host government. However, embassy
      staff perceive a lack of customer service and transparency in administrative
      operations.




38   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                        Best Practice: Document Scanning

        Issue: The financial management office wanted to reduce the
        volume of paper associated with vouchers, invoices, and payment
        documentation.

        Response: The information management office researched and
        found a document scanning system that would meet requirements
        to copy documents and store them electronically.

        Result: The financial staff scan vouchers, invoices, and other
        documents into a database. Users retrieve copies using various
        software systems and work with spreadsheet data. There is no
        longer a need to retype information, and copies are shared among
        staff as e-mail attachments. The information officer plans to
        provide document scanning capabilities for other embassy sec-
        tions, including the medical unit and the general services office.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   39
40   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                                       AUDITS
                                       AUDITS



Program Reviews Division


Survey of Department Compliance with the
Federal Activities Inventory Reform (FAIR)
Act of 1998 (AUD/PR-03-10)

    OIG completed its survey of the Department’s progress in complying with the
FAIR Act. The FAIR Act directs federal agencies to issue an inventory each year
of all commercial activities performed by federal employees; that is, those activities
that are not inherently governmental. OIG found that the Department’s FY 2001
inventory of 3,046 full-time-equivalent positions available for competition was
developed in an inconsistent manner and, consequently, was inaccurate. As a result
of OIG’s review, the Department has taken a more comprehensive, systematic
approach to compiling the 2002 inventory.




Review of Department of State’s Bogotá Vehicle
Procurement (AUD/PR-03-13)

    At the request of the previous Chairman of the House Committee on Govern-
ment Reform, the OIG reviewed the proposed procurement of a sports utility
vehicle for Embassy Bogotá. The congressional request was made in response to
several press reports criticizing the solicitation, which was posted as a public notice
on the Federal Business Opportunities web site. The Chairman expressed concern
that the solicitation contained unnecessary features, had an unusually short re-
sponse time, and was canceled after press reports highlighted the vehicle’s luxurious
features.


Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   41
          OIG found that the solicitations issued by the Department for a sports utility
      vehicle with luxury features resulted from a combination of miscommunications
      and procurement errors that went undetected because of a lack of supervisory
      review by the Department. Department officials acknowledged that mistakes were
      made in the vehicle procurement and have taken corrective actions, including a
      new policy requiring that all draft solicitations receive supervisory approval before
      they are posted.




      Attestation Review of Annual Accounting of
      Drug Control Funds for FY 2002 (AUD/PR-03-23)

          OIG reviewed the Chief Financial Officer’s FY 2002 detailed accounting
      submission to the Director of the Office of National Drug Control Policy
      (ONDCP). The Chief Financial Officer prepared the submission in compliance
      with ONDCP Circular: Annual Accounting of Drug Control Funds, dated May 30,
      2002. The Department is responsible for this submission.

          Based on this review of the accounting submission, OIG did not detect any
      irregularities that would lead OIG to surmise that the accompanying assertions do
      not, in all material respects, reliably represent the FY 2002 obligation data pre-
      sented to ONDCP.




      U.S. Direct Assistance to Colombian National
      Police (AUD/PR-03-27)

          In response to a request from the Chairman of the Senate Caucus on Interna-
      tional Narcotics Control, OIG conducted a review following up on press reports
      that $2 million in U.S. aid to Colombian National Police (CNP) counternarcotics
      efforts was reported missing.

          In August 2001, the Narcotics Affairs Section (NAS) of Embassy Bogotá
      issued a report to CNP that raised concerns regarding vendor invoices, including
      the identification of 15 vendors that NAS auditors believed had committed fraud.
      As of June 2002, NAS Bogotá auditors questioned approximately $1.7 million in
      expenditures, based on their review of CNP invoices submitted from January 2000



42   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
to April 2002. At that same time, NAS Bogotá refused to conduct business with
CNP until it was reassured that the CNP officers implicated in the fraud were
terminated. In September 2002, Embassy Bogotá reported that 16 officers had
been removed from their positions.

    As a result of the decision to dismiss the officers, NAS Bogotá resumed busi-
ness with CNP and established a new agreement and procedures. Specifically, NAS
Bogotá assumed direct responsibility for all procurement actions and limited the
number and kinds of goods and services it finances. The procurement system now
in place has adequate safeguards to prevent a recurrence of the fraud, according to
the Bureau of International Narcotics and Law Enforcement Affairs officials.

    Embassy Bogotá is working with the Colombian government to ensure that the
officers who committed the alleged fraud are prosecuted. The Colombian govern-
ment has criminal and administrative investigations under way. If the prosecutions
are successful, the Department will attempt to recover the stolen funds from the
guilty parties.




Review of Department of State’s End-Use
Monitoring of Munitions Exports (AUD/PR-03-31)

    Section 150 of the Arms Export Control Act of 1976, as amended, provides
that, to the extent practicable, the President shall establish a program for the end-
use monitoring of defense articles and services to identify high-risk exports for
regular end-use verification. The program, commonly referred to as the Blue
Lantern Program (BLP), was designed to provide reasonable assurance that the
recipient is complying with U.S. government requirements and that such articles and
services are being used for the purposes intended.

     OIG found that the Office of Defense Trade Controls targets end-use monitor-
ing and verification for only a small number of license applications and approved
licenses. Overseas, OIG observed that end-use monitoring was not consistently
implemented. Site visits to foreign consignees (host country commercial businesses
purchasing munitions through U.S. companies) and end-users (typically, host gov-
ernment military services) did not occur at four of the nine missions that OIG
visited. OIG believes that improved BLP guidance and direction are needed,
especially with regard to the requirements for conducting site visits. In addition,
better reporting and communication are needed on the results of end-use checks.



Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   43
          OIG also noted that export monitoring and enforcement are limited at U.S.
      ports. OIG found that the Department and U.S. Customs do not coordinate
      effectively when questions arise about whether items require an export license.
      OIG believes that the Department could enhance its export enforcement process
      by providing additional training to U.S. Customs’ inspectors on the identification of
      U.S. Munitions List items.

           OIG recommendations include increasing the number of end-use checks and
      site visits performed, providing additional BLP guidance and compliance office
      direction with regard to site visits, and improving the reporting and communication
      on the results of end-use checks.



      Contracts and Grants Division


      Review of the Asia Foundation’s Indirect Cost
      Rates for Fiscal Years 1999, 2000, and 2001
      (AUD/CG-03-11)

          At the request of the Department, OIG conducted a limited review of the Asia
      Foundation’s indirect costs for fiscal years 1999, 2000, and 2001. OIG’s primary
      purpose was to determine whether the indirect cost structure complied with appli-
      cable regulations.

          OIG found that the indirect cost rates reported by the Asia Foundation in its
      OMB Circular A-133 audit report were mathematically correct and that the indirect
      cost structure complied with OMB Circular No. A-122, Cost Principles for Non-
      Profit Organizations. In August 1999, the Asia Foundation changed its indirect
      cost methodology, which resulted in about a ten percent reduction in the rate from
      FY 2000 to 2001. OIG recommends that the rates reported by the Asia Founda-
      tion be used in finalizing the indirect cost rates for the stated periods.




44   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
Review of Selected Awards to Youth for
Understanding, Inc. (AUD/CG-03-12)

    At the request of the Department, OIG conducted a limited review of nine
grants totaling approximately $7.7 million awarded to Youth for Understanding,
Inc. (YFU). On March 8, 2002, YFU ceased operations due to financial problems
and later filed Chapter 11 bankruptcy documents in the District of Columbia. At
the time of the shutdown, YFU had nine open grants, six ongoing grants and three
grants that were complete but still open because the required final reports had not
been submitted. In March 2002, a separate organization, YFU-USA, Inc., began
operations and YFU-USA requested that the Department transfer all open, ongoing
grants to the new organization and allow this entity to complete the projects. The
Department did not transfer the agreements to YFU-USA and, instead, made
preparations to assign the grants to other organizations. In conjunction with these
actions, the Department requested OIG’s assistance in determining the amount of
federal funds, if any, that YFU owed to the Department.

    OIG conducted a limited review of the nine grants and found that, at a mini-
mum, YFU owes the Department $315,793. YFU also could not demonstrate that
it met its cost-sharing provision for six of the nine grants.




Audit of Costs Claimed by the Open Society
Institute Under Selected U.S. Department of
State Awards (AUD/CG-03-16)

    At the request of OIG, a contract auditor performed an audit of costs claimed
by the Open Society Institute (OSI) on two grants. The audit determined that OSI
did not distribute salary and benefit costs to grants based on employee timesheets.
OSI charged salaries and benefits to grants based on estimates of each employee’s
activities. The estimates were determined before any services were performed.
Employees were required to prepare timesheets that were an after-the-fact sum-
mary of activities; OSI did not, however, use these summaries to distribute salary
and benefit costs. The audit questioned $218,168 of unsupported costs.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   45
          Also, OSI did not meet its cost-sharing requirement under one of the grants.
      Accordingly, the federal share was overclaimed, and the audit questioned $108,911.
      Cost-share expenses claimed for tuition waivers provided by the host university
      were overstated because OSI miscalculated the amount claimed. The audit recal-
      culated tuition waiver costs and questioned the $85,160 difference.

          Other questioned costs of $116,807 ($101,142 of federal share and $15,665 of
      cost share) related to expenses charged to the wrong grant and differences between
      OSI’s records and costs claimed.




      Follow-up Review of Project Harmony, Inc.
      (AUD/CG-03-28)

           At the request of the Department and Project Harmony, OIG conducted a
      follow-up review of actions taken on OIG recommendations in its report, Review of
      Selected Awards to Project Harmony, Inc., for Activities in the New Independent States (01-
      FMA-R-080, dated September 2001). Specifically, OIG reviewed corrective
      actions taken by Project Harmony and also examined its indirect cost structure and
      methodology for claiming reimbursement of indirect expenses for FY 2001. In this
      review, OIG found:

           •   Project Harmony had taken significant steps to implement OIG’s recom-
               mendations; however, it had not fully implemented all portions of the
               recommendations, in part, because of limited resources. OIG also con-
               cluded that, based on the grantee’s level of compliance, the restriction
               against establishing an indirect cost rate for Project Harmony was no longer
               necessary.

           •   Project Harmony had calculated indirect cost rates for FY 2001 based on
               actual costs incurred. OIG reduced the proposed rates due to questioned
               unallowable costs totaling about $8,000 and because Project Harmony had
               inappropriately excluded capital costs from the direct cost bases. OIG had
               planned to review the costs and rates for FY 2002, but Project Harmony
               had not prepared the required indirect cost rate proposal for FY 2002.




46   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
Review of Department’s Management of
Financial Assistance (AUD/CG-03-29)

    OIG conducted an analysis of the Department’s spending on federal financial
assistance programs and its current structure and processes for managing such
assistance. OIG reviewed data related to federal financial assistance awarded
domestically during FYs 1998 through 2000. Specifically, OIG identified domestic
bureaus and offices within the Department providing financial assistance; ascer-
tained the types of funding mechanisms used to award assistance; quantified the
dollar value of assistance; and identified policies, procedures, and systems used to
manage the assistance programs. In addition, OIG reviewed actions the Depart-
ment was taking to implement the Federal Financial Assistance Management
Improvement Act of 1999, which requires, among other things, streamlining and
simplification of the processes, administration, and reporting procedures for federal
financial assistance programs.



Procurement, Property and Administrative
Support Division


Review of Energy Conservation
(AUD/PPA-03-04)

      Since OIG last reported in 1994, the Department has made significant progress
in its energy program and in complying with energy-related legislation. In 1994, the
Department established a position for an energy policy and conservation officer,
and that person has established a comprehensive energy plan. OBO has improved
its oversight and reporting for overseas energy consumption, as requested by the
Department of Energy. In addition, OBO annually performs comprehensive
energy management surveys at overseas embassies and consulates. OBO also has
had success in its utility management program, which gathers information by
surveying meter rates. These surveys found more than $540,000 in annual savings
from facilities that had the wrong utility rates imposed and inaccurate meters. The
Department has also met its performance goals related to domestic alternative fuel
vehicles.


Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   47
          In addressing the goals set forth in Executive Order 13123, the Department
      reported that its energy consumption in federal buildings has been reduced by
      seven percent. The Department has been successful in its use of energy savings
      performance contracts (ESPCs) both domestically and overseas. Also, to provide
      the best service to the energy policy and conservation officer, several contracting
      officers should receive Department of Energy’s specialized training in ESPCs. In
      addition, the Department has taken action to identify a best practice overseas
      where individual employees are notified of their residential utility bills and how
      they compare to others.




      Review of Allegations Regarding the Office of
      Humanitarian Demining Programs
      (AUD/PPA-03-25)

          At the request of the Assistant Secretary for the Bureau of Political-Military
      Affairs (PM), OIG reviewed allegations pertaining to procurements in the Office of
      Humanitarian Demining Programs (PM/HDP). The allegations were posted on an
      Internet web site that had been established to share advice and information among
      the worldwide demining community.

          OIG found no evidence of impropriety in the award of a worldwide contract
      for demining supplies and services. The process used to award this contract was
      well documented and followed federal procurement regulations. OIG did not
      identify any evidence that would confirm specific allegations that the “contract was
      awarded unfairly” or that the procurement was “wired.” Similarly, OIG found no
      evidence of impropriety in working relations between the contractor and PM/HDP
      officials. The two people posting the above allegations were later interviewed by
      OIG. Both people either withdrew their allegations or could not provide any
      evidence to support their assertions.




48   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
Financial Management Division


Audit of the International Joint Commission’s
2001 and 2000 Principal Financial Statements
(AUD/FM-03-01)

    Under OIG’s direction, an independent external auditor audited the Interna-
tional Joint Commission’s (IJC) 2001 and 2000 principal financial statements. The
objectives of the audit were to report on whether the financial statements fairly
present IJC’s financial position and results of financial operations, in accordance
with generally accepted accounting principles; to determine whether IJC had an
internal control structure that provided reasonable assurance of achieving internal
control objectives; and to determine whether IJC complied with applicable laws
and regulations.

    The auditor issued an unqualified opinion on the statements; however, the
report brings to management’s attention concerns about security over the
Department’s information system networks and instances of noncompliance with
selected provisions of applicable laws and regulations relating to the Department’s
financial management systems. Because IJC’s financial statements are prepared
using the Department’s books and records, these weaknesses also affect IJC.




OPM Application of Agreed-Upon Procedures
(AUD/FM-03-02)

    Under OIG’s direction, an independent auditor performed required procedures
solely to assist the Office of Personnel Management in assessing the reasonable-
ness of Retirement, Health Benefits, and Life Insurance withholdings and contribu-
tions as well as enrollment information submitted by the Department via the
Semiannual Headcount Report. No material differences were noted. However, the
audit identified several instances in which the Department did not have required
forms on file to support employee life insurance elections.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   49
      Information Technology Vulnerability
      Assessment of the International Cooperative
      Administrative Support Services System
      (AUD/FM-03-03)

          The Government Management Reform Act of 1994 (GMRA) requires that the
      Department’s principal financial statements be audited annually. Audits of the
      principal financial statements require, among other things, understanding and
      assessing the adequacy of the internal control process for recording, accumulating,
      and reporting financial data. This, in turn, requires an assessment of the security
      over the automated systems that process financial data. At OIG’s direction,
      independent external computer specialists performed a vulnerability assessment of
      the ICASS system.

          OIG found that the specific security features associated with the ICASS appli-
      cation appeared to function correctly and were well managed. The OpenNet
      segment that supports the ICASS application needed some improvements but was
      sufficiently secure to satisfy most system requirements. There were a number of
      vulnerabilities detected during the technical vulnerability assessment. Most of
      these pertained to system configuration issues that could be corrected without
      affecting overall network performance or availability. Many of these issues also
      were noted during vulnerability assessments of other applications, which suggests
      that the problems still exist throughout the Department’s IT infrastructure and,
      therefore, should be addressed Department-wide rather than one segment at a time.




      Audit of the International Cooperative
      Administrative Support Services’ 2001 and 2000
      Principal Financial Statements (AUD/FM-03-17)

          Under OIG’s direction, an independent external auditor audited the ICASS
      2001 and 2000 financial statements in order to obtain reasonable assurance and
      express an opinion on whether the financial statements fairly present, in all material
      respects, the financial position and results of financial operations, in conformity
      with generally accepted accounting principles; to determine whether ICASS had an




50   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
internal control structure that provided reasonable assurance of achieving internal
control objectives; and to determine whether ICASS complied with applicable laws
and regulations.

    The external auditor issued an unqualified opinion on the ICASS 2001 and
2000 financial statements. Although an unqualified opinion was issued, the report
brought to management’s attention concerns about security over the Department’s
information system networks and the Paris Financial Service Center’s Accounting
and Disbursing System, the inadequacy of the Department’s financial and account-
ing system, and the Department’s controls over undelivered orders.




Audit of U.S. Department of State 2002 and
2001 Principal Financial Statements
(AUD/FM-03-18)

    The Government Management Reform Act requires that the Department’s
Principal Financial Statements be audited. The objectives of the audit are to report
on whether the financial statements fairly present the Department’s financial
position and results of financial operations, in accordance with generally accepted
accounting principles; to determine whether the Department had an internal
control structure that provided reasonable assurance of achieving internal control
objectives; and to determine whether the Department complied with applicable
laws and regulations.

    An independent external auditor issued an unqualified opinion on the
Department’s 2002 and 2001 Principal Financial Statements. Although an unquali-
fied opinion was issued, the report brings to management’s attention concerns
about security over the unclassified network and the Paris Financial Service
Center’s Accounting and Disbursing System; the inadequacy of internal controls
over the management of undelivered orders and the collection and reporting of
managerial cost accounting information; and the inadequacy of the Department’s
financial and accounting system, which is both an internal control weakness and an
issue of noncompliance with several laws and regulations.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   51
      Agreed-Upon Procedures Report on Federal
      Intragovernmental Activity and Balances
      (AUD/FM-03-19)

          The Treasury Department annually prepares and submits to the President and
      the Congress an audited financial statement covering all executive agencies. Each
      agency is required to furnish certain financial and operational information to the
      Department of the Treasury through the Federal Agencies’ Centralized Trial-
      Balance System (FACTS). Agencies must reconcile and confirm intragovernmental
      balances with their trading partners and ensure that these balances agree with
      FACTS reporting and audited financial statements before submitting year-end data
      to the Treasury Department.

          Under OIG’s direction, a contract auditor performed required procedures solely
      to assist the Treasury Department, the General Accounting Office, and OMB with
      accounting for and eliminating intragovernmental activity and balances in the
      preparation of agency and governmentwide financial statements and reports. The
      auditor reviewed the Chief Financial Officer Representations for Federal
      Intragovernmental Activity and Balances, copies of the reconciliations, and confir-
      mations. The auditor noted no differences but disagreed with the responses pro-
      vided by the Chief Financial Officer for accounts receivable, earned revenue, and
      transfers in because the auditor did not believe that sending confirmations consti-
      tuted completing reconciliations.




      Agreed-Upon Procedures Report on Federal
      Agencies’ Centralized Trial Balance System
      (AUD/FM-03-20)

          The Treasury Department annually prepares and submits to the President and
      the Congress an audited financial statement covering all executive agencies. Each
      agency is required to furnish certain financial and operational information to the
      Treasury Department through the FACTS. The Chief Financial Officer of the
      agency must compare the information submitted through FACTS with the agency
      financial statements and explain any differences identified.




52   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
    Under OIG’s direction, a contract auditor performed required procedures solely
to assist the Treasury Department, the General Accounting Office, and OMB to
evaluate management’s assertion that it compared the summarized FACTS data to
the related information in the agency’s consolidated financial statements as of and
for the year ended September 30, 2002. The auditor identified no differences, but
noted that the Department identified material differences for the accounts grouping
worksheet balance sheet that were due to transfer funds. The auditor validated the
amount of the difference related to fund balance with the Treasury Department,
but the Department did not provide supporting documentation for the difference in
unexpended appropriations.




Domestic Travel Card Program (AUD/FM-03-22)

    The Department recently instituted a number of initiatives to improve over-
sight of the travel card program. For instance, the Department implemented a
process to address travel card payment delinquencies in the 90-day and 120-day
past due categories and to detect misuse. OIG could not fully assess the effective-
ness of most of these initiatives because they had not been in place long enough.
However, OIG believes that if the initiatives are implemented as planned, they
should decrease the rate of travel card payment delinquency and misuse.

    Although the Department made a number of improvements, OIG found that it
did not have a process in place to address delinquencies in the 60-day past due
category before the cards are automatically suspended. OIG also found that the
Department had not done enough to prevent and detect misuse of the cards. The
Department was working, however, to establish a process to notify HR, DS, and
OIG about misuse and delinquency so that these bureaus could take appropriate
action.

    OIG found that the Department did not have controls in place to ensure that
the administrative oversight of the travel card program was adequate. For instance,
the Department needed to ensure that the program coordinators were managing the
appropriate number of accounts, transferring or canceling accounts as needed, and
identifying multiple accounts. Also, the Department had not developed measurable
performance goals specific to the travel card program. Although performance goals
are not required for this program, developing objectives and identifying perfor-
mance measures are useful management tools.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   53
54   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                    INFORMATION TECHNOLOGY



Improved Approach Needed to Achieve
Government Paperwork Elimination Act
Objectives (IT-A-03-01)

    OIG conducted a review of the Department’s implementation of GPEA, and
found that the Department had submitted its initial e-government plan and subse-
quent updates in a timely manner to meet OMB’s annual GPEA reporting require-
ments. However, these submissions have not adequately met OMB guidelines or
the administration’s e-government objectives. Specifically, although the
Department’s initial plan in 2000 met the basic GPEA requirement to provide an
inventory of information collection activities to be made electronic by the law’s
2003 deadline, the plan lacked an overarching GPEA vision and strategy. Subse-
quent 2001 updates to the plan better articulated the Department’s GPEA strategy,
but fell short in a number of areas, including the failure to link the strategy with
key planning processes and an enterprise architecture.

     The Department’s ineffectiveness in meeting the reporting requirements can be
attributed to the lack of a centralized program management organization respon-
sible for coordinating and overseeing e-government initiatives and fulfilling GPEA
objectives on an enterprise-wide basis. Other federal agencies and comparable
projects within the Department have demonstrated the merits of instituting pro-
gram management offices to accomplish shared objectives across organizational
units.

    Establishing a full-time, e-government program management office would
ensure the focus, accountability, and day-to-day coordination needed to help the
Department meet the administration’s objectives and GPEA requirements. Such an
office also would help the Department meet the challenges of coordinating its
GPEA and e-government approach with sound strategies for ensuring security in
electronic transactions and the increased use of web-based technologies as it works
to modernize its IT infrastructure.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   55
      The Foreign Affairs System Integration Project
      Needs Redirection (IT-A-03-02)

          OIG reviewed the Department’s strategy for establishing a common knowledge
      management system under the auspices of the FASI program within the Depart-
      ment. The initiative is currently at risk of not meeting the objectives of supporting
      effectively a decision on an approach to communications and knowledge manage-
      ment among the U.S. foreign affairs community overseas. FASI’s approach to
      planning and prototyping the system is not based on adequate analysis of the
      mission and business processes that the system is intended to support. The require-
      ments identified also were not based on sufficient input from the range of users and
      functions across participating organizations, and did not consider adequately the
      use of existing systems as potentially less costly alternatives or coordinate with
      related projects to ensure that there was no duplication in its approach for ensuring
      connectivity and knowledge management at overseas missions.

          Further, while the office has coordinated with selected agency representatives,
      Department bureaus, and overseas missions directly involved in the project, the
      office has not marketed the system with other entities whose commitment will also
      be critical to supporting global system deployment. Worldwide deployment of the
      system depends heavily on the results of the pilot test and evaluation. However,
      poor timing, lagging content management, IT resource constraints, and unresolved
      system and technical problems have hindered efforts to get pilot users trained,
      certified, and committed to using the system.

          To maximize the benefits of its IT investments, the Department recently
      decided to merge FASI with a related messaging system replacement initiative. In
      this context, FASI program redirection should include a reexamination of user
      requirements and alternative approaches to meeting those requirements. As the lead
      agency for the initiative, the Department also must take steps to establish executive
      sponsorship, well-defined cost models, and interagency agreements to ensure
      funding and commitment to global implementation of the system.




56   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
Information Technology Inspections of
Embassy Lisbon, Portugal (IT-I-03-03),
Embassy Madrid, Spain (IT-I-03-04),
Embassy Montevideo, Uruguay (IT-I-03-05), and
Embassy Buenos Aires, Argentina (IT-I-03-06)

    The OIG inspected the management, operational, and technical IT security
controls implemented by four missions. These controls involved IT security poli-
cies, procedures, activities, and software and hardware settings. OIG found several
opportunities for improving IT security at all four embassies. The missions could
significantly improve:

    •   management controls by periodically assessing its IT security vulnerabilities
        and risks, preparing and implementing IT security plans to mitigate the
        identified vulnerabilities and risks, and routinely reviewing and improving
        the established IT security controls;

    •   operational controls by better ensuring the adequacy of IT security experi-
        ence, training and education for its cleared American IT administrators; and
        of its annual IT security awareness training for all users;

    •   technical controls by improving the management of its identification,
        authentication, configuration, and audit trails controls.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   57
58   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                               INVESTIGATIONS



Contract Fraud
    OIG opened an investigation early in 2002 based upon a complaint that the
president of a company that was providing explosives ordnance detection dogs and
handlers to the Department as a subcontractor had made false statements regarding
the company’s qualifications to perform these services, and was providing the
Department with dogs and handlers that could not meet the standards claimed by
the company. The company had begun to provide EOD dogs and handlers to
several federal entities, including the Department, after September 11, 2001. This
became a joint investigation with the Offices of Inspector General of the Depart-
ment of Homeland Security, the Federal Reserve System, and the Department of
the Treasury Inspector General for Tax Administration.

    In April 2002, officials of the Bureau of Alcohol, Tobacco, and Firearms
administered a standardized test to six of the EOD dogs that the company had
assigned to work at the Department. All six of the dogs failed the test. Immedi-
ately following this test, the primary contractor terminated its subcontract with this
company.

    In March 2003, the president of this company was indicted by a federal grand
jury in Alexandria, Virginia, on 26 felony counts of wire fraud, and two felony
counts of submitting false claims to the government, as a result of this investiga-
tion. He was arrested subsequently on these charges. Resolution of these charges
was pending at the end of this reporting period. (02-034)



Theft
    OIG opened an investigation in March 2001, based on information from OIG’s
Office of Audits indicating that a former employee of a Department grantee may
have been involved in the theft of grant funds. The investigation developed
evidence that the former employee of a non-government organization had charged




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   59
      personal expenditures to grant funds, and had fraudulently increased his own salary
      without the approval or knowledge of his supervisor. In November 2002, he
      pleaded guilty to a misdemeanor charge of bank larceny. As part of the plea
      agreement, he agreed to make restitution of $12,874.27. Sentencing was pending
      at the end of this reporting period. (01-049)


          OIG opened an investigation in April 2002, based on information that the
      controller of a nonprofit organization receiving grant funds from the Department
      had improperly written checks to herself and to members of her family. An OIG
      investigator, working with OIG auditors, was able to confirm this through analysis
      of available financial records. The subject of the investigation admitted to theft
      during an interview. In March 2003, she pleaded guilty in U.S. District Court to a
      felony charge and agreed to make restitution of more than $60,000. Sentencing was
      pending at the end of this reporting period. (02-030)


          The Bureau of Administration, Office of the Procurement Executive, informed
      OIG in February 2001 that a cellular telephone leased by the Bureau of Near
      Eastern Affairs (NEA) for a peace conference was missing and that approximately
      $10,000 in unauthorized charges had accrued. An OIG investigation determined
      that some numbers called from this cellular telephone were associated with an
      employee from NEA who had administrative responsibility for leasing cellular
      telephones for the peace conference and who had reported this telephone missing.

          When interviewed by OIG investigators, the employee admitted that she had
      kept the telephone after the peace conference had ended, that she had used the
      telephone for personal calls, and that she had also allowed a relative to use the
      telephone. In July 2002, following criminal declination of the case, OIG reports of
      investigation were provided to the Department. The Department notified the
      employee that she owed the government $9,765.63 as a result of these actions. In
      September 2002, the Department sent the employee a notice proposing removal
      from Department employment. In February 2003, the Department made a final
      decision to mitigate this action to a suspension of 14 days without pay. (01-057)




60   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
Employee Misconduct
    OIG received information that a former Department employee failed to file her
termination Financial Disclosure Report, despite repeated written reminders from
her office. In October 2002, the former employee paid $2,000 to settle a civil
complaint filed by the Department of Justice, Civil Division, in the United States
District Court for the District of Columbia. In December 2002, the former em-
ployee filed the required Financial Disclosure Report. (02-007)

    OIG received information that a Foreign Service Officer failed to file two
required annual Financial Disclosure Reports, despite repeated written reminders
from his office. In January 2003, the Department issued a three-day suspension
without pay to the officer for his failure to follow instructions by not filing the
Financial Disclosure Reports.



Follow-up Actions
    OIG opened a joint
investigation with the De-
                                       Types of Cases*
partment of Labor, Office of Passport & Visa Fraud, 12%
Racketeering and Fraud
Investigations; Immigration     Employee Misconduct, 28%
and Naturalization Service,
and Internal Revenue Service Miscellaneous Theft, 19%
in May 2001, based upon
information that a Virginia     False Statements and Claims, 21%
immigration attorney and a
Department personal services Contract & Procurement Fraud, 16%
contract employee were
involved in a scheme of         All Other, 4%
employment-based immigrant
visa fraud. The manager of
a Virginia restaurant, which is 0               10          20             30          40           50

part of a nationwide chain,              (*Reflects combined ongoing investigative activities for
                                                    the Department of State and BBG.)
informed the government
that the immigration attorney had filed labor certifications with the government
without the consent or knowledge of restaurant management.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003         61
          The investigation established that the Department contract employee, who was
      employed as a fire safety engineer, had acted as middleman for the immigration
      attorney in approaching managers of restaurants and other businesses in the Wash-
      ington, D.C., area. He also had assisted the immigration attorney in submitting
      hundreds of applications for labor certification through the Virginia Employment
      Commission to the U.S. Department of Labor. All of these applications were
      determined to be fraudulent. The investigating agents obtained additional evidence
      through interviews, surveillance, and analysis of financial records. They also
      recorded conversations between an undercover agent and the two subjects of the
      investigation.

          In July 2002, the investigating agents arrested the immigration attorney and the
      Department contract employee based upon arrest warrants for immigration fraud.
      Search warrants were executed at the immigration attorney’s office, and at the
      Department contract employee’s residence, bank, and Department office space.
      The agents seized more than $40,000 that the Department contract employee had
      in his possession at the time of his arrest. They also seized more that $900,000 in
      cash during the search of his apartment; and seized approximately $2.5 million
      from his bank account. The contract employee’s personal services contract was
      terminated after his arrest.

          In August 2002, the former Department contract employee pleaded guilty to
      five felony counts, including immigration fraud, money laundering, extortion, labor
      certification fraud, and conspiracy to commit labor certification fraud. He also
      agreed to cooperate with the government. He was sentenced to 97 months’ impris-
      onment and was ordered to pay restitution of $4 million. In December 2002, after
      a jury trial, the immigration attorney was found guilty on all 57 felony counts in a
      grand jury indictment, including conspiracy to commit labor certification fraud,
      false statements, immigration fraud, and laundering of monetary instruments. In
      March 2003, he was sentenced to 121 months’ imprisonment and was ordered to
      pay restitution of $2.3 million. (See OIG Semiannual Report, April 1 to September
      30, 2002, p. 61) (01-064)


          In May 2001, HR’s Office of the Executive Director (HR/EX) informed OIG that
      an internal review had disclosed significant suspect charges regarding post assign-
      ment travel (PAT) associated with Embassy Lusaka. HR/EX stated that almost $2
      million in suspect charges had been identified.

         OIG investigators reviewed records of payments from the Department to
      vendors in connection with PAT vouchers filed at Embassy Lusaka. This review,
      and subsequent investigative activity, determined that numerous payments had


62   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
been made to bogus vendors that had provided no services to the embassy or the
Department. Several of these bogus vendors were located in the United States, in
Connecticut and in the Washington, D.C., area. Others were located in the Repub-
lic of South Africa and in the United Kingdom.

   OIG investigators traveled to Embassy Lusaka and determined that a former
FSN employee at the embassy had caused approximately $2.5 million to be sent to
bank accounts associated with bogus vendors that had provided no services.

    In March 2002, OIG agents executed an arrest warrant in Waterbury, Connecti-
cut on a Zambian national who had received some of these fraudulent payments.
Search warrants were also executed, in both Connecticut and Virginia, at residences
associated with the bank accounts.

   In June 2002, this individual pleaded guilty in U.S. District Court, Washington,
D.C., to a felony charge of conspiracy to receiving stolen government money. In
November 2002, he was sentenced to 30 months’ imprisonment and was ordered to
make restitution of more than $2 million. (See OIG Semiannual Report, April 1 to
September 30, 2002, pp. 62-63) (01-059)


     OIG received information from the Bureau of Information Resource Manage-
ment (IRM) indicating that a Civil Service computer operator had claimed to be
working for the Department when she also was being paid by a Department con-
tractor. Record reviews established that she regularly left her Department duty
station 2 hours prior to the end of her shift to report to work for the contractor, but
claimed that she had worked her full shift as a Department employee. The em-
ployee admitted her misconduct to OIG investigators. In July 2002, OIG provided
reports of investigation to HR and to the Bureau of Resource Management (RM).
RM provided the employee with a notice of indebtedness in the amount of $3,289,
and HR provided the employee with a notice of proposed removal. In January
2003, HR informed the employee that, based upon several factors, HR had decided
to mitigate the penalty from removal to a suspension of 30 days without pay. (See
OIG Semiannual Report, April 1 to September 30, 2002, pp. 63-64)(02-024)


    OIG opened a joint investigation with INS, IRS, and the Social Security
Administration’s Office of Inspector General, in August 1999, based upon infor-
mation that a network of people was engaged in a scheme involving visa fraud,
alien smuggling, and money laundering. The group, operating in several parts of
the United States and in the Czech Republic, was engaged in a conspiracy to profit
from the employment of unauthorized alien workers in the United States.


Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   63
      Geographic Distribution of Ongoing Investigations*




                  Western Hemisphere – 7 cases, 16%
                                                              Europe – 4 cases, 10%
             Domestic
             27 cases,                              Near East
               63%                                  1 case, 2%
                                                                                            East Asia and
                                                                                                Pacific
                                                           Africa                            3 cases, 7%
                                                          1 case,
                                                            2%




                                                Boundary representations are
                                                not necessarily authoritative.

             (*Reflects combined ongoing investigative activities for the Department of State and BBG.)




          The investigation determined that the group assisted foreign nationals in
      obtaining nonimmigrant visas from U.S. consulates by misrepresenting the true
      purpose of the travel and by providing fraudulent documentation in support of visa
      applications. Once in the United States, many of these foreign nationals were
      provided with counterfeit H1-B visas, which authorize employment. The fraudu-
      lent visas then were used to obtain social security cards and other identity
      documents.

          Four Czech nationals, who had been living in the United States, entered guilty
      pleas to felony charges in U.S. District Court in Norfolk, Virginia, in February 2000.
      One of the individuals, who had pleaded guilty to conspiracy to launder monetary
      instruments, was sentenced to 84 months’ incarceration and was ordered to forfeit
      $136,763 in seized assets. The other three individuals received lesser sentences.




64   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
   In April 2001, two Slovak nationals residing in Florida were arrested and
subsequently pleaded guilty in Norfolk, to charges of knowingly employing ten or
more unauthorized aliens. One of the individuals was sentenced to seven months’
imprisonment; the other was sentenced to nine months’ imprisonment.

    In July 2001, two naturalized U.S. citizens residing in Florida were indicted on
felony charges related to the scheme. One of these individuals pleaded guilty to
conspiracy to launder monetary instruments. He was sentenced to 87 months’
incarceration and fined $20,000. After a jury trial, the other individual was found
guilty of conspiracy to commit money laundering, knowingly employing ten or
more unauthorized aliens, and encouraging unauthorized aliens to enter and reside
in the United States. He was sentenced to 60 months’ incarceration.

    In August 2002, a Slovak national, who had fled to the Czech Republic during
the investigation, was returned to the United States after extradition proceedings.
He pleaded guilty to counterfeiting alien documents. In January 2003, he was
sentenced to 27 months’ imprisonment. He will be deported from the United
States after his release. (See OIG Semiannual Report, April 1 to September 30
2002, pp. 66-67; OIG Semiannual Report, October 1, 2001 to March 31, 2002, pp
68- 69; OIG Semiannual Report, April 1 to September 30, 2001, pp. 58-59; and
OIG Semiannual Report, October 1, 2000 to March 31, 2001, pp. 52-53) (99-072)


    OIG opened an investigation in August 1999 based upon information received
from a police detective in California. The information indicated that a passport
seized during the execution of a search warrant contained the picture of a Nigerian
national who was under investigation for forgery and fraud; the name on the pass-
port was not the true name of this individual. OIG obtained and reviewed relevant
passport application records. In January 2001, a criminal complaint was filed in the
Southern District of California, charging the Nigerian national with passport fraud.
The individual was arrested in February 2001.

    In December 2002, the Nigerian national went on trial for passport fraud and
credit card fraud in U.S. District Court in Los Angeles, California. The OIG case
agent testified at trial regarding the passport fraud charge. The defendant was
convicted on one count of passport fraud. The jury did not reach a verdict on the
other charges. The defendant remains incarcerated, as he has been since February
2001, awaiting sentencing and a decision as to whether to try him again on the
charges of credit card fraud. (See OIG Semiannual Report, October 1, 2000 to
March 31, 2001, p. 51) (99-073)




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   65
          OIG opened an investigation in May 2002, based upon allegations that a
      contract passport processor at the Miami Passport Agency had been involved in
      identity theft. The OIG investigation determined that the employee had used
      personal information from a passport applicant in an attempt to purchase a com-
      puter using the passport applicant’s name. The contract employee was terminated
      from her position.

          In October 2002, the contract employee pleaded guilty to one count of fraud in
      U.S. District Court, Miami, Florida. The employee was sentenced to 24 months
      probation and a $100 special assessment. (See OIG Semiannual Report, April 1,
      2002 to September 30, 2002, p. 63) (02-039)



      Hotline
          The OIG Hotline, operated by the Office of Investigations, is a prompt,
      effective channel for employees and others to report incidents of fraud, waste,
      abuse, and mismanagement to the Inspector General. Below is a summary of
      Hotline activity for the agencies for which OIG has oversight.


                        Total allegations received                         242
                        Held for action within OIG                          24
                        Referral to other offices for action               162
                        No action necessary                                 56




66   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
       APPENDIX 1: INVESTIGATIVE ACTIVITIES1
        APPENDIX 1: INVESTIGATIVE ACTIVITIES1
Workload                                                     Total Judicial Actions                                25
Cases pending 10/01/02                             47
                                                             Criminal
New cases opened                                   17
                                                             Prosecutive referrals                               9
Cases closed                                       21
Cases pending 3/31/03                              43        Prosecutive declinations                            6
                                                             Prosecutive dismissals                              0
Preliminary inquiries pending 10/01/02             19        Acquittals                                          0
Preliminary opened                                 38        Indictments2                                        1
Preliminary closed                                 36        Convictions                                         5
Preliminary converted to cases                      1        Sentencings                                         3
Preliminary inquiries pending 3/31/03              22
                                                               Time sentenced                           97 months
Total Administrative Actions                        6          Time probation                              3 years
                                                             Court-ordered fines                        $12,874.27
Admonishments                                        0       Court-ordered restitutions              $6,300,000.00
Counseling                                           0
Curtailment                                          0
                                                             Civil
Demotions                                            0
Reimbursements                                       1       Referrals                                               1
Reprimands                                           0       Declinations                                            0
Resignations                                         0       Complaints                                              0
Suspensions                                          3       Judgments                                               0
Terminations (Department employees)                  0       Court-ordered fines                             $2,000.00
Terminations (Contract employees)                    0       Recoveries                                              0
Administrative referrals                             2       Total judgments and recoveries                          0
PFCRA3 referrals                                     0
Savings                                              0




                         Administrative recoveries4     $     3,262.36
                                            5
                         Judicial recoveries            $ 6,314,874.27
                         Total Investigative Recoveries $ 6,318,136.63

           1
             This appendix reflects investigative statistics for the Department of State only. Please see
   page 79 for investigative statistics related to BBG.
           2
             Indictments included formal criminal charges brought against a subject. The manner in
   which charges are brought varies from country to country.
           3
             Program Fraud and Civil Remedies Act.
           4
             Includes recoveries from administrative actions, such as reimbursements and savings.
           5
             Includes recoveries from judicial actions, including court-ordered fines and restitutions and
   civil judgments and recoveries.


        The statistics and narrative case descriptions of investigative activities appearing in this
    Semiannual Report to the Congress are the result of reports received from prosecutive and
    administrative authorities. The final actions may be changed at a later date by individual use of
    administrative and judicial appeals processes.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003                         67
68   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                    APPENDIX 2: REPORTS ISSUED
                   AAPPENDIX
                     PPENDIX 2: REPORTS
                             2: R EPORTS IISSUED
                                           SSUED


Office of Security and Intelligence Oversight
SIO-I-03-01        Embassy Amman, Jordan                                                              11/02
SIO-I-03-02        Embassy Almaty, Kazakhstan                                                         12/02
SIO-I-03-03        Embassy Ljubljana, Slovenia                                                        12/02
SIO-I-03-04        Embassy Apia, Samoa                                                                11/02
SIO-I-03-05        Embassy Cotonou, Benin                                                             11/02
SIO-A-03-06        Secure Shipment of Classified Information Processing Equipment                     12/02
SIO-I-03-07        Embassy Tbilisi, Georgia                                                           12/02
SIO-I-03-08        Embassy Dublin, Ireland                                                            12/02
SIO-I-03-13        Limited-Scope Security Inspection Embassy Belgrade                                 03/03
SIO-I-03-14        Embassy Zagreb, Croatia                                                            01/03
SIO-I-03-15        Embassy Tokyo, Japan and Constituent Posts                                         03/03
SIO-I-03-16        Embassy Abu Dhabi and Consulate General Dubai                                      02/03
SIO-I-03-17        Embassy Muscat, Oman                                                               02/03
SIO-I-03-19        Embassy La Paz, Bolivia                                                            02/03
SIO-I-03-23        Security Evaluation on Control of Communications Security
                   Materials and Electronic Storage                                                   02/03
SIO-C-03-24        Security Compliance Followup Review of Embassy Beijing
                   and Constituent Posts                                                              03/03
SIO-I-03-25        Embassy Quito, Ecuador and Constituent Post                                        02/03
SIO-I-03-26        Embassy Maseru, Lesotho                                                            03/03
SIO-I-03-28        Security Inspection of Embassy Yaounde, Cameroon                                   03/03
SIO-A-03-30        Status Report Protection of Classified Documents at State Department
                   Headquarters                                                                       01/03
SIO-C-03-35        Followup Review of the Unit Security Officer Program                               01/03
SIO-I-03-38        Compound Access Control Vulnerabilities                                            11/02

Office of Inspections
ISP-I-03-01        Inspection of Embassy Almaty, Republic of Kazakhstan                               12/02
ISP-I-03-02        Inspection of Embassy Ashgabat, Turkmenistan                                       02/03
ISP-I-03-03        Inspection of Embassy Bishkek, Kyrgyz Republic                                     02/03
ISP-I-03-04        Inspection of Embassy Dushanbe, Republic of Tajikistan                             01/03
ISP-I-03-05        Inspection of Embassy Ljubljana, Slovenia                                          02/03
ISP-I-03-06        Inspection of Embassy Maputo, Mozambique                                           12/02
ISP-I-03-07        Inspection of Embassy Moscow and Consulates General
                   St. Petersburg, Vladivostok, and Yekaterinburg, Russia                             12/02
ISP-I-03-08        Inspection of Embassy Port Louis, Mauritius                                        01/03
ISP-I-03-09        Inspection of Embassy Tashkent, Republic of Uzbekistan                             01/03
ISP-I-03-10        Inspection of Embassy Zagreb, Croatia                                              02/03
ISP-I-03-12        Inspection of Embassy Brasilia, Brazil and Constituent Posts                       03/03
ISP-I-03-19        Inspection of Embassy Quito, Ecuador and Constituent Post                          03/03
ISP-I-03-23        Inspection of Bureau of Western Hemisphere Affairs                                 03/03
ISP-I-03-24        Inspection of U.S. Mission to the Organization of American States                  03/03



   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003     69
     ISP-CA-03-25       Review of Domestic Passport Operations, Phase II:
                        Fraud Prevention Programs                                                   01/03
     ISP-I-03-26        Review of Nonimmigrant Visa Issuance Policy and Procedures                  12/02

     Office of Audits
     AUD/FM-03-01       Audit of the International Joint Commission’s 2001 and 2000
                        Principal Financial Statements                                              10/02
     AUD/FM-03-02       OPM Application of Agreed-Upon Procedures                                   11/02
     AUD/FM-03-03       Information Technology Vulnerability Assessment of the
                        International Cooperative Administrative Support Services System            12/02
     AUD/PPA-03-04      Review of Energy Conservation                                               01/03
     AUD/PR-03-10       Survey of Department Compliance with the Federal Activities
                        Inventory Reform Act of 1998                                                12/02
     AUD/CG-03-11       Review of the Asia Foundation’s Indirect Cost Rates For
                        Fiscal Years 1999, 2000, and 2001                                           02/03
     AUD/CG-03-12       Review of Selected Awards to Youth for Understanding, Inc.                  12/02
     AUD/PR-03-13       Review of Department of State’s Bogota Vehicle Procurement                  12/02
     AUD/PPA-03-14      Embassy Khartoum Fiscal Irregularity                                        12/02
     AUD/CG-03-16       Audit of Costs Claimed by the Open Society Institute Under
                        Selected U.S. Department of State Awards                                    02/03
     AUD/FM-03-17       Audit of the International Cooperative Administrative Support
                        Services’ 2001 and 2000 Principal Financial Statements                      01/03
     AUD/FM-03-18       Audit of U.S. Department of State 2002 and 2001 Principal
                        Financial Statements                                                        02/03
     AUD/FM-03-19       Agreed-Upon Procedures Report on Federal Intragovernmental
                        Activity and Balances                                                       02/03
     AUD/FM-03-20       Agreed-Upon Procedures Report on Federal Agencies’
                        Centralized Trial Balance System                                            02/03
     AUD/FM-03-22       Domestic Travel Card Program                                                03/03
     AUD/PR-03-23       Attestation Review of Annual Accounting of Drug Control
                        Funds for FY 2002                                                           02/03
     AUD/PPA-03-25      Review of Allegations Regarding the Offices of Humanitarian
                        Demining Programs                                                           03/03
     AUD/PR-03-27       U.S. Direct Assistance to Colombian National Police                         03/03
     AUD/CG-03-28       Follow-up Review of Project Harmony, Inc.                                   03/03
     AUD/CG-03-29       Review of the Department’s Management of Financial Assistance               03/03
     AUD/PR-03-31       Review of Department of State’s End Use Monitoring of
                        Munitions Export                                                            03/03

     Information Technology
     IT-A-03-01       Improved Approach Needed to Achieve Government Paperwork
                      Elimination Act Objectives                                                    12/02
     IT-A-03-02       The Foreign Affairs System Integration Project Needs Redirection              12/02
     IT-I-03-03       Inspection of Embassy Lisbon, Portugal                                        01/03
     IT-I-03-04       Inspection of Embassy Madrid, Spain                                           01/03
     IT-I-03-05       Information Technology Security Inspection of Embassy Montevideo,
                      Uruguay                                                                       03/03
     IT-I-03--06      Information Technology Security Inpsection of Embassy Buenos Aires,
                      Argentina                                                                     03/03




70         Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
APPENDIX 3: SAVINGS & MORE EFFECTIVE USE OF RESOURCES


                                              Table I
                              INSPECTOR GENERAL ISSUED AUDIT REPORTS1
                                      WITH QUESTIONED COSTS2


                                                                  Number            (Dollars in Thousands)
                                                                 of Reports Questioned Costs Unsupported Costs


   A.    For which no management decision has been
         made by the commencement of the reporting
         period3                                                        14              17,523              11,196

   B.    Which were issued during the reporting period                   2                  537                    5

   Subtotals (A + B)                                                    16              18,060              11,201

   C.    For which a management decision was made
         during the reporting period
         – based on formal administrative
             or judicial appeal
         (i) dollar value of disallowed costs                            1                  10                    0
         (ii) dollar value of costs not disallowed                       54              5,732                2,107

   D.    For which no management decision has been
         made by the end of the reporting period                        10              12,318                9,094

         Reports for which no management decision
         was made within 6 months of issuance                            8              11,781                9,089




   ––––––––––––––––––


   1
      Includes audit reports issued by the Office of Audits and by the Office of Security and Intelligence Oversight. .
   2
      Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a law, regulation,
   contract, grant, cooperative agreement, or other agreement or document governing the expenditure of funds; a finding that, at the
   time of the audit, such costs are not supported by adequate documentation; or a finding that the expenditure of funds for the
   intended purpose is unnecessary or unreasonable.
    3
      Includes adjustments for prior years’ reporting errors.
   4
      One report had management decisions both disallowing and not disallowing costs.



         Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003                              71
                                    Table II
                    INSPECTOR GENERAL ISSUED AUDIT REPORTS
             WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1


                                                                                 Number               Dollar Value
                                                                                of Reports        (in thousands)


      A. For which no management decision has been made
         by the commencement of the reporting period 2                               3                17,541

      B. Which were issued during the reporting period                               11                   429

              Subtotals (A + B)                                                      4                17,970

      C. For which a management decision was made
         during the reporting period 3                                               2                17,300

              (i) dollar value of recommendations that were
                  agreed to by management                                            2                14,200
                  – based on proposed management action
                  – based on proposed legislative action

              (ii) dollar value of recommendations that were
                   not agreed to by management                                       1                  3,100

      D. For which no management decision has been
         made by the end of the reporting period                                     2                    670

              Reports for which no management decision
              was made within 6 months of issuance                                   1                    241




      ––––––––––––––––––


       1
         A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be used
      more efficiently if Department management took actions to implement and complete the recommendations,
      including: reductions in outlays; deobligation of funds from programs or operations; withdrawal of interest
      subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred by implementing recom-
      mended improvements related to the operations of the Department, a contractor, or a grantee; avoidance of
      unnecessary expenditures noted in preaward reviews of contract or grant agreements; or any other savings
      which are specifically identified.
       2
           Includes adjustment for prior years’ reporting errors.
       3
        One report had management agreement on only part of the dollar value.




72   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
APPENDIX 4: RESOLUTION                              OF     REPORTS & RECOMMENDATIONS




                           PREVIOUSLY R EPORTED S IGNIFICANT A UDIT
                          R ECOMMENDATIONS 1 P ENDING F INAL ACTION 2

 Report  Rec.  Report Title                                                                                  First
 Number Number Recommendation Summary                                                                      Reported




 93-A-34/
 ARR-95-08Grants Management Follow Up                                                                      3/31/95
           5. Require monthly reporting requirements on the project’s status.
           6. Ensure that data in the grants system is reconciled with data in other
               grant-related systems.


 APR-96-07Exchange Visitor Information System                                                              3/31/96
           3. Determine the feasibility of electronically transmitting J Visa data from
              sponsor organizations to the EVIS database at USIA.




  ––––––––––––––––––


   1
     Includes audit recommendations reported as significant in semiannual reports prior to March 31, 2002, on
  which Department management has agreed to take corrective action but for which those actions are not yet
  complete.
   2
     Final action is recorded when a proposed course of action in response to a recommendation has been
  accepted by OIG and completed by management to OIG’s satisfaction.




     Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003                 73
                              SUMMARY OF AUDIT REPORTS
         WITHOUT M ANAGEMENT D ECISION FOR M ORE THAN S IX M ONTHS




      Town Affiliation Association of the U.S. (00-CG-019), July 2000
      Summary: OIG made recommendations on questioned costs totaling about $908,812 and
               internal controls and compliance issues.
      Reason Unresolved: The Department is reviewing additional documentation provided by
                the grantee.
      To be resolved by: July 2003


      The American Councils for International Education (00-CG-032), September 2000
      Summary: OIG made recommendations on questioned costs totaling $1,186,847 and
               compliance issues.
      Reason Unresolved: The Department is seeking clarification and additional documenta-
                tion from the grantee.
      To be resolved: July 2003




74   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
         BROADCASTING BOARD OF GOVERNORS

Review of the Effectiveness and Implementation
of Office of Cuba Broadcasting’s New Program
Initiatives (IBO-A-03-01)

     OIG reviewed the new Radio Marti programming initiatives instituted by the
OCB director after July 2001. OIG found the initiatives seemed to be targeting
important new audiences in Cuba; however, it was too early to determine the
impact of these new programs on increasing the number of Cuban listeners. Avail-
able information on listenership in Cuba was inconclusive concerning whether
program changes in Radio and TV Marti had a positive impact on the Cuban
audiences. New audience research planned for late 2002 and 2003 may provide a
better indication of the overall impact of the new OCB programming. In the
meantime, OCB should use other approaches, such as audience mail and telephone
calls from listeners, to assess the impact of its programming.

    The new initiatives are generally positive; however, OIG documented a number
of deficiencies in their implementation. OCB did not conduct a systematic person-
nel needs assessment before contracting out for talent to meet its new programming
requirements. In addition, the practices and procedures involving the hiring and
use of talent contractors were inappropriate and inadequate. OIG documented
some violations of government procurement requirements and actions that created
an appearance of favoritism.




            Source: IBB Office of Research, Foreign Media in Cuban Cities–1998-2001


Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   75
          Since his arrival, the OCB director has operated without some key management
      personnel who might have been able to provide him with guidance on government
      rules and regulations, particularly, a chief of staff and a Radio Marti director.
      Although a chief of staff worked for a brief period, the Radio Marti director
      position remained vacant. OIG believes that the absence of these key individuals
      contributed to the administrative irregularities concerning the use of talent contrac-
      tors. Additionally, the lack of some important OCB internal controls may have
      exacerbated these problems.




      Inspection of the Helsinki Regional Monitoring
      Office (IBO-I-03-03)

          IBB personnel, operating out of a regional monitoring office in Helsinki,
      Finland, monitor whether the radio transmission signals sent out by IBB for 40
      language services of the Voice of America and Radio Free Europe/Radio Liberty
      are received clearly. An IBB staff of two, hired locally, supervises 20 contract staff,
      who visit monitoring sites in Russia and the New Independent States to maintain
      and service equipment used by the contract monitors. Approximately 20,000
      observations per week are submitted to the regional office. The regional office
      then provides these observations by cable to the Office of Engineering and Techni-
      cal Services, Spectrum Management Division.

          The Helsinki Regional Monitoring Office is one of BBG’s most active, but no
      American officer from Embassy Helsinki has specific liaison responsibility to assist
      with administrative support. OIG identified the need for an American liaison
      officer to ensure that IBB regional staff receive full value for administrative ser-
      vices provided by Embassy Helsinki under the ICASS system. Overall, the office
      receives satisfactory administrative support.

          OIG also recommended that the embassy ensure that all originating offices
      receive a confirmation copy of outgoing cables, or the ability to track transmission
      electronically, to verify that the cables have been sent. This would help ensure that
      embassies and consulates in Russia or the New Independent States receive ad-
      equate notification to provide regional contract staff the necessary support to carry
      out their mission.




76   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
         BROADCASTING BOARD OF GOVERNORS
Survey of the Merger of Worldnet Television with
the Voice of America (IBO-A-03-04)

    The development of new media, including television and Internet, and chang-
ing foreign policy priorities require greater efficiencies in broadcasting. To obtain
such efficiencies, the BBG notified Congress in February 2000 of its decision to
merge the Worldnet Television and Film Service (WORLDNET) with the Voice of
America (VOA). In November 2001, the VOA director proposed that the merger
become part of a complete reorganization of VOA.

    At present, merger plans do not indicate immediate cost savings. Congress
approved the plan with the understanding that the reorganization of VOA and the
merger of WORLDNET would result in efficiencies and cost savings. Savings
were originally envisioned based on the premise that correspondents and technical
personnel would be cross trained and multifunctional, and video-journalists would
provide television products for multimedia use.

    The merger has already partially taken place. OIG observed that
WORLDNET has become a production house providing technical support to all
VOA-TV products. VOA-TV projects have been created, are being broadcast, and
in some cases, have attracted a significant audience. For example, the Indonesian
and Azerbaijani television programs each have a strong viewing audience. Several
simulcast programs are produced, such as VOA NewsReview and Conversemos En
Esta Noche, that require both radio and TV technicians to work together to make a
simulcast happen. There are WORLDNET employees that work full-time on
specific VOA-TV products for language services. These employees should be
assigned to and supervised by the respective language services.

    To allow the agency time to reorganize under a new VOA director, a new board
chairman, and other new board members, OIG made only one recommendation,
which called for a quarterly status report. BBG has agreed to provide OIG with a
quarterly status report on the merger, ending with completion of the merger. At the
same time, BBG has taken under consideration several matters that OIG suggested
to facilitate completion of the merger.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   77
      Review of the BBG Monitoring of Contractor
      Performance (AUD/PPA-03-21)

          OIG conducted a review to determine whether the BBG had effective systems
      and procedures in place to monitor contractor performance. Although OIG con-
      ducted this review domestically, it also administered a questionnaire to obtain the
      views of BBG personnel worldwide with contractor performance monitoring
      responsibilities.

          Overall, OIG found that BBG personnel were adhering to applicable policies
      and procedures in monitoring contractor performance on the three contracts that
      OIG examined. However, OIG found some instances where BBG personnel
      allowed contractor services to be performed before appropriate contract modifica-
      tions were established to authorize the services. Some of these examples consti-
      tuted unauthorized commitments that were not in keeping with BBG guidance.
      Also, OIG found that the contracting officer had not formally delegated authority
      to some field personnel with performance monitoring responsibilities, which was
      contrary to BBG policy.

           BBG personnel with performance monitoring responsibilities also were ensuring
      that contract terms and conditions were being met and were versed in their duties
      and responsibilities. With one contract, however, OIG found that the contract
      itself was vague as to how contractor performance was to be monitored. Also,
      OIG determined that, of BBG’s 40 employees with delegated contractor perfor-
      mance monitoring responsibilities, 50 percent were handling multiple contracts, and
      55 percent were stationed domestically while the contractor performed work
      overseas. The constraints that time and distance place on these people reduce the
      amount of oversight that they are able to perform and increase the risk to BBG
      that contractor performance problems may go undetected.

          Finally, OIG found that the BBG personnel with whom it met, as well as those
      who responded to the questionnaire, thought that they were adequately qualified to
      perform their duties and had received training. However, BBG regulations did not
      specify any minimum training requirements for personnel with performance moni-
      toring responsibilities, which would be a prudent business practice, given the
      importance of proper contractor performance monitoring.




78   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
              APPENDIX I: INVESTIGATIVE ACTIVITIES
              A
              APPENDIX
                PPENDIX 1:
                        I: IINVESTIGATIVE
                             NVESTIGATIVE A
                                          ACTIVITIES
                                            CTIVITIES



                            Workload

                            Cases pending 10-01-02                                   1
                            New cases opened                                         0
                            Cases closed                                             0
                            Cases pending 3-31-03                                    1


                            Total Judicial Actions                                  0

                            Prosecutive Referral                                    0
                            Prosecutive Declination                                 0

                            Total Administrative Actions                            0




                The statistics and narrative case descriptions of investigative activities appearing
                in this Semiannual Report to the Congress are the result of reports received from
                prosecutive and administrative authorities. The final actions may be changed at a
                later date by individual use of administrative and judicial appeals processes.




                     AAPPENDIX 2: 2:
                               2:
                        APPENDIX
                       PPENDIX    REPORTS   IISSUED
                                      REPORTS
                                     EPORTS     ISSUED
                                              SSUED
                      APPENDIX 2: R EPORTS  I SSUED
                      APPENDIX 2: REPORTS ISSUED

IBO-A-03-01        Review of the Effectiveness and Implementation of Office of Cuba
                   Broadcasting’s New Program Initiatives                                              02/03
IBO-I-03-03        Inspection of Helsinki Regional Monitoring Office                                   03/03
IBO-A-03-04        Survey of the Merger of Worldnet Television with the
                   Voice of America                                                                    03/03
AUD/PPA-03-21      Review of the BBG Monitoring of Contractor Performance                              03/03




    Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003           79
APPENDIX
A         3: SSAVINGS
  PPENDIX 3:          &M
               AVINGS & MORE EFFECTIVE
                         ORE E          USE
                               FFECTIVE U SE OF RESOURCES
                                             OF R ESOURCES




       The Inspector General did not identify any questioned costs or
       funds to be put to better use for this reporting period.




 80   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                       SUMMARY OF AUDIT REPORTS
  WITHOUT M ANAGEMENT D ECISION FOR MORE THAN SIX MONTHS


Within the last six months, OIG has worked closely with BBG to close out a number of
long-standing recommendations included in the last semiannual report. These reports and
a description of the principal actions taken are described below. For this reporting period,
BBG has no recommendations without management decision for more than six months.

BBG Audience Research Program (01-FP-R-042), May 2001 – The primary objectives of
this OIG review were to determine BBG’s progress in developing a reliable research capabil-
ity, evaluate how BBG gathers and uses the research, and analyze the related contracting
practices. OIG found that BBG had made significant progress in developing an audience
research program covering all of its broadcast entities, but also found and recommended
areas for improvement. In general, BBG agreed with most of the recommendations and
addressed a number of these through its establishment of a single-master audience
research contract. Through this contract, BBG has regularized the allocation of annual
audience research for each of the broadcast entities and requires annual qualitative and
quantitative research for each language service. Initially, BBG did not agree with OIG
findings and recommendations concerning the systematic use of audience research.
However, BBG subsequently indicated that the new research contract addressed OIG’s
concerns and that it had established procedures for improvement.

Review of the Broadcasting Board of Governors’ Affiliates Program (IBO-A-02-01),
November 2001 – As shortwave radio listenership has declined, BBG has increased its use
of FM and AM affiliate radio stations and affiliate television stations overseas. The objec-
tives of the review were to determine whether the affiliates program was adequately planned
and effectively implemented and whether monitoring and controls are in place and effective.
OIG made a number of recommendations to improve the program. One of the key recom-
mendations was for the IBB Affiliates Office to complete and implement a comprehensive
strategic plan for the affiliates program. In November 2002, BBG reported that the plan had
been completed. OIG’s review of the plan found it to be comprehensive and that it appeared
to provide a sound approach for guiding the work of the IBB affiliate marketing and program
placement office. This and other information allowed OIG to close the open report recom-
mendations.




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   81
82   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                           LIST OF ABBREVIATIONS
                       LIST OF ABBREVIATIONS
                       LIST OF ABBREVIATIONS
                       LIST OF ABBREVIATIONS


                   BBG          Broadcasting Board of Governors
                    BLP         Blue Lantern Program
                     CA         Bureau of Consular Affairs
                   CNP          Colombian National Police
                   DCM          Deputy chief of mission
           Department           Department of State
                     DS         Bureau of Diplomatic Security
                  EOD           Explosives ordnance detection
                   EUR          Bureau of European and Eurasian Affairs
                   FASI         Foreign Affairs Systems Integration
                 FFMIA          Federal Financial Management Improvement Act
                                of 1996
                     FSI        Foreign Service Institute
                    FSN         Foreign Service national
                 GMRA           Government Management Reform Act
                 GPEA           Government Paperwork Elimination Act
                 GPRA           Government Performance and Results Act
                                of 1993
                     HR         Bureau of Human Resources
                HR/EX           Bureau of Human Resources, Office of the
                                Executive Director
                    IBB         International Broadcasting Bureau
                 ICASS          International Cooperative Administrative Support
                                Services
                      IT        Information Technology
                 NATO           North Atlantic Treaty Organization
                   OAS          Organization of American States
                  OBO           Bureau of Overseas Buildings Operations
                   OCB          Office of Cuba Broadcasting




Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003   83
                                OIG         Office of Inspector General
                               OMB          Office of Management and Budget
                           ONDCP            Office of National Drug Control Policy
                                 PM         Bureau of Political-Military Affairs
                                 RM         Bureau of Resource Management
                                SEP         Special Embassy Program
                                SIO         OIG, Office of Security and Intelligence
                                            Oversight
                            USOAS           U.S. Mission to the Organization of
                                            American States
                               USO          Unit Security Officer
                             USAID          U.S. Agency for International Development
                              WHA           Bureau of Western Hemisphere Affairs
                           Worldnet         Worldnet Television and Film Service




84   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
                         INDEX OF REPORTING REQUIREMENTS
                    INSPECTOR GENERAL ACT OF 1978, AS AMENDED



REQUIREMENT        SUBJECT                                                                PAGE NUMBERS

Section 4(a)(2)    Review of legislation and regulations                                            13-14
Section 5(a)(1)    Significant problems, abuses, and deficiencies                            21-66, 75-78
Section 5(a)(2)    Significant recommendations for corrective action                         21-66, 75-78
Section 5(a)(3)    Prior significant recommendations unimplemented                                         73
Section 5(a)(4)    Matters referred to prosecutive authorities                                      59-66
Section 5(a)(5)    Information or assistance refused                                                 None
Section 5(a)(6)    List of reports issued                                                           69-70
Section 5(a)(7)    Summaries of significant reports                                          21-66, 75-78
Section 5(a)(8)    Audit reports–questioned costs                                                   71, 80
Section 5(a)(9)    Audit reports–funds to be put to better use                                      72, 80
Section 5(a)(10) Prior audit reports unresolved                                                     74, 81
Section 5(a)(11)   Significant revised management decisions                                          None
Section 5(a)(12) Significant management decisions with which OIG disagreed                           None




        Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003        85
                FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                        of Federal programs and resources
                                 hurts everyone.

                              Call the Office of Inspector General
                                             HOTLINE
                                           202/647-3320
                                        or 1-800-409-9926
                                or e-mail oighotline@state.gov
                              to report illegal or wasteful activities.

                                       You may also write to
                                    Office of Inspector General
                                     U.S. Department of State
                                       Post Office Box 9778
                                        Arlington, VA 22219

                             Please visit our website at oig.state.gov

                                Cables to the Inspector General
                               should be slugged “OIG Channel”
                                    to ensure confidentiality.




88   Office of Inspector General Semiannual Report to the Congress, October 1, 2002 to March 31, 2003
